<html>
<title> - [H.A.S.C. No. 111-40] IMPROVING RECOVERY AND FULL ACCOUNTING OF POW/MIA PERSONNEL FROM ALL PAST CONFLICTS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


                                     

                         [H.A.S.C. No. 111-40]
 
                      IMPROVING RECOVERY AND FULL

                    ACCOUNTING OF POW/MIA PERSONNEL

                        FROM ALL PAST CONFLICTS

                               __________

                                HEARING

                               BEFORE THE

                    MILITARY PERSONNEL SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             APRIL 2, 2009

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     



                  U.S. GOVERNMENT PRINTING OFFICE
51-069                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                    MILITARY PERSONNEL SUBCOMMITTEE

                 SUSAN A. DAVIS, California, Chairwoman
VIC SNYDER, Arkansas                 JOE WILSON, South Carolina
LORETTA SANCHEZ, California          WALTER B. JONES, North Carolina
MADELEINE Z. BORDALLO, Guam          JOHN KLINE, Minnesota
PATRICK J. MURPHY, Pennsylvania      THOMAS J. ROONEY, Florida
HANK JOHNSON, Georgia                MARY FALLIN, Oklahoma
CAROL SHEA-PORTER, New Hampshire     JOHN C. FLEMING, Louisiana
DAVID LOEBSACK, Iowa
NIKI TSONGAS, Massachusetts
                Craig Greene, Professional Staff Member
                 John Chapla, Professional Staff Member
                     Rosellen Kim, Staff Assistant
                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Thursday, April 2, 2009, Improving Recovery and Full Accounting 
  of POW/MIA Personnel from All Past Conflicts...................     1

Appendix:

Thursday, April 2, 2009..........................................    41
                              ----------                              

                        THURSDAY, APRIL 2, 2009
 IMPROVING RECOVERY AND FULL ACCOUNTING OF POW/MIA PERSONNEL FROM ALL 
                             PAST CONFLICTS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Davis, Hon. Susan A., a Representative from California, 
  Chairwoman, Military Personnel Subcommittee....................     1
Wilson, Hon. Joe, a Representative from South Carolina, Ranking 
  Member, Military Personnel Subcommittee........................     2

                               WITNESSES

Broward, Ron, POW/MIA Advocate...................................    13
Crisp, Rear Adm. Donna L., USN, Commander, Joint POW/MIA 
  Accounting Command.............................................    28
Griffiths, Ann Mills, Executive Director, National League of 
  Families of American Prisoners and Missing in Southeast Asia...     6
Metersky, Frank, Washington Liaison, Korea-Cold War Families of 
  the Missing....................................................    10
O'Shea, Lynn, Director of Research, National Alliance of Families     9
Phillips, Lisa, President, WWII Families for the Return of the 
  Missing........................................................     7
Piacine, Robin, President, Coalition of Families of Korean and 
  Cold War POW/MIAs..............................................    12
Ray, Hon. Charles A., Deputy Assistant Secretary of Defense for 
  POW/Missing Personnel Affairs, U.S. Department of Defense......    27
Riley, Philip D., Director, National Security and Foreign 
  Relations, The American Legion.................................     5
Wysong, Michael H., Director of National Security and Foreign 
  Affairs, Veterans of Foreign Wars..............................     3

                                APPENDIX

Prepared Statements:

    Broward, Ron.................................................   140
    Crisp, Rear Adm. Donna L.....................................   183
    Davis, Hon. Susan A..........................................    45
    Griffiths, Ann Mills.........................................    68
    Metersky, Frank..............................................   121
    O'Shea, Lynn.................................................    80
    Phillips, Lisa...............................................    75
    Piacine, Robin...............................................   126
    Ray, Hon. Charles A..........................................   172
    Riley, Philip D..............................................    58
    Wilson, Hon. Joe.............................................    47
    Wysong, Michael H............................................    48

Documents Submitted for the Record:

    POW/MIA Accounting Requires Full--Not Selective Accounting, 
      testimony submitted by Roger Hall, Executive Director of 
      Studies Solutions Results, Inc.............................   197
    Statement of Dr. Lester Tenney, Commander, American Defenders 
      of Bataan and Corregidor...................................   240
    Statement of Gary Jones, National Chair, Vietnam Veterans of 
      America POW/MIA Committee..................................   242
    Statement of Keith E. Phillips...............................   223
    Trip Report: League Delegation to Southeast Asia, March 15-
      31, 2009, submitted by Ann Mills Griffiths, National League 
      of Families of American Prisoners and Missing in Southeast 
      Asia.......................................................   191

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mrs. Davis...................................................   251
    Mr. Wilson...................................................   252
 IMPROVING RECOVERY AND FULL ACCOUNTING OF POW/MIA PERSONNEL FROM ALL 
                             PAST CONFLICTS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                           Military Personnel Subcommittee,
                           Washington, DC, Thursday, April 2, 2009.
    The subcommittee met, pursuant to call, at 2:04 p.m., in 
room 2212, Rayburn House Office Building, Hon. Susan Davis 
(chairwoman of the subcommittee) presiding.

OPENING STATEMENT OF HON. SUSAN A. DAVIS, A REPRESENTATIVE FROM 
    CALIFORNIA, CHAIRWOMAN, MILITARY PERSONNEL SUBCOMMITTEE

    Mrs. Davis. Good afternoon, everybody. Thank you so much 
for being here. The meeting will come to order.
    This hearing I certainly want to thank our witnesses for 
coming today. We appreciate your being with us.
    Our hearing today focuses on improving recovery and full 
accounting of the Prisoner of War (POW)/Missing in Action (MIA) 
personnel from all past conflicts, which this committee, as you 
well know, has been tasked with overseeing.
    The subcommittee held an oversight hearing on the status of 
POW/MIA activities on July 10th, 2008. It was the first hearing 
the subcommittee held since October 1998, over 10 years ago.
    As I stated during the July hearing, while the subcommittee 
did not hold hearings in the intervening years, it has 
certainly not forgotten its oversight responsibility, nor has 
it been sitting idly by on this issue.
    Over the past several years, this committee has passed 
legislation focusing on ensuring the POW/MIA effort remains a 
national priority and continues to receive sufficient funding 
to accomplish the mission.
    The subcommittee remains dedicated to the full accounting 
of all American prisoners of war and those missing in action. 
We owe it to their families, but most importantly we owe it to 
the men and women who are currently serving in uniform.
    Today we will hear testimony and discuss ways to improve 
the recovery and full accounting of those missing and bring 
them home to their families expeditiously as possible.
    We have two panels of witnesses for our hearing. And the 
first panel is comprised of members from a variety of 
organizations which all have a passionate interest in 
identifying and recovering our missing. All of the 
organizations have a wealth of knowledge. We really appreciate 
that. We know how long you have been working on these issues 
and how important and passionate you are about them. So we know 
your wealth of knowledge and the experience that you have in 
matters of POW/MIA recovery, and we are very happy that you 
could be here to provide us with your thoughts and your ideas 
on how to improve the process.
    So let me welcome here today--and let me just say before I 
introduce you that it looks like we are going to have a vote 
coming up shortly. But we think we probably can hear from--
well, if we can, if you are all to three minutes, we might be 
able to get through all of you, and we are going to do our 
best.
    Let me welcome Mr. Michael Wysong, director of national 
security and foreign affairs, Veterans of Foreign Wars (VFW). 
And Mr. Phil Riley will be on his way shortly. He is the 
director of national security and foreign relations of the 
American Legion; Ms. Ann Mills Griffiths, the executive 
director of the National League of Families of American 
Prisoners and Missing in Southeast Asia; Ms. Lisa Phillips, 
president of World War II Families for the Return of the 
Missing; Ms. Lynn O'Shea, director of research for the National 
Alliance of Families; Mr. Frank Metersky, the Washington 
liaison for the Korea-Cold War Families of the Missing; Ms. 
Robin Piacine, president of the Coalition of Families of Korean 
and Cold War POW/MIAs; and Mr. Ron Broward, a POW/MIA Advocate.
    Our second panel--and we were very pleased to have them 
participate also in July--will be the Honorable Charles Ray, 
Deputy Assistant Secretary of Defense (DASD) for POW/Missing 
Personnel Affairs, and Rear Admiral Donna Crisp, Commander, 
Joint POW/MIA for the Accounting Command (JPAC).
    I want to welcome you all. And, again, if you can give us 
your testimony in three minutes--do you all have that 
information that we were hoping that you could do that?
    That is great. And we always make it a habit to come back 
and make sure that you have had a chance to say something that 
is really critical and important to you at the end.
    And Mr. Wilson, do you have any comments to add? And as you 
know, we are trying to rush through them a little bit----
    [The prepared statement of Mrs. Davis can be found in the 
Appendix on page 45.]

   STATEMENT OF HON. JOE WILSON, A REPRESENTATIVE FROM SOUTH 
   CAROLINA, RANKING MEMBER, MILITARY PERSONNEL SUBCOMMITTEE

    Mr. Wilson. Thank you, Chairwoman Davis. And, indeed, I 
appreciate your efforts that nobody is going to be cut short.
    Chairwoman Davis has been terrific about providing for 
time. And we will be back.
    I want to begin by thanking the distinguished members of 
our two panels. We look forward to hearing your testimony and 
working with you to fulfill our commitment to our American 
heroes who are missing in action or prisoners of war.
    At the outset, I want to highlight some of the strategic 
themes outlined in the recent Personnel Accounting Community 
Strategy set out by the Defense Prisoner of War/Missing 
Personnel Office (DPMO). The first theme is also a national 
priority. We as a government seek the fullest possible 
accounting of those Americans who become missing while 
supporting U.S. national objectives.
    The second theme is that we, both the executive and 
legislative branches, serve the interest of the missing 
individual. As a 31-year Army veteran, as the son of a World 
War II veteran, as the father of four sons currently serving in 
the military, I especially believe that every man and woman 
whom we send in harm's way in the service of the United States 
must be confident that our government will not leave them 
behind.
    When I look at what has been accomplished over the last 
three decades, I believe that America has met the mandates of 
those two themes for the 1,559 prisoners of war and missing 
personnel in action who have been identified from Vietnam, 
Korea, the Cold War and World War II.
    However, we have neither fulfilled the requirements for the 
fullest possible accounting nor made good on the requirement to 
serve the interest of the missing individual for more than 
84,000 people who remain unaccounted for from the four 
conflicts I have cited above.
    Under current policies, organization and structure, 
manning, and funding personnel accounting agencies, the 
Department of Defense (DOD) have made on average since 2000, 76 
identifications per year. That number of annual identifications 
is not consistent with a national priority of achieving the 
fullest possible accounting.
    Furthermore, if we do not do something to significantly 
increase the numbers of annual identifications--say, for 
example, by a factor of three, four or five--this will soon 
preclude the Nation's ability to fully account for those 84,000 
still missing or prisoners of war. We must do more as a Nation 
to better serve those who have gone in harm's way with the 
implicit commitment by our government that we would not leave 
them behind.
    Before we close, I want to give a special recognition to a 
witness on the second panel, Ambassador Charles Ray, Deputy 
Assistant Secretary of Defense for POW/Missing Personnel 
Affairs. Ambassador Ray has served in this current capacity 
since September 2006, and will be returning to his duties at 
the State Department. This will be the last time he appears 
before this subcommittee. I want to extend my thanks for his 
service to this Nation and for the contributions he has made to 
the effort of fully accounting for our POWs and missing 
personnel.
    Madam Chairwoman, I am pleased that you are holding this 
hearing in an effort to seek ideas on how to improve the 
personnel accounting process. I join you in welcoming our 
witnesses and look forward to their testimony.
    [The prepared statement of Mr. Wilson can be found in the 
Appendix on page 47.]
    Mrs. Davis. Thank you very much.
    And Mr. Wysong, why don't you start? Thank you.

 STATEMENT OF MICHAEL H. WYSONG, DIRECTOR OF NATIONAL SECURITY 
         AND FOREIGN AFFAIRS, VETERANS OF FOREIGN WARS

    Mr. Wysong. Thank you, Madam Chair.
    On behalf of the 2.2 million members of the Veterans of 
Foreign Wars, I want to thank you for the opportunity to share 
our views on this most important issue. The VFW has long been 
committed to achieving the fullest possible accounting for all 
military personnel still missing from all of our Nation's wars.
    It has come to our attention once again that JPAC has been 
shortchanged in their budget by over $2 million, which will 
translate into curtailing operations. This points to a funding 
stream that flows from DOD through the Navy and then from U.S. 
Pacific Command (PACOM) to JPAC, which puts JPAC's mission in 
competition with war fighting priorities. And when agencies are 
called upon to cut their budget and that figure trickles down 
to JPAC, it equates to a disproportional mandate for a command 
with a relatively small budget.
    The VFW is not convinced that this is the best funding 
method for JPAC. Therefore, we suggest a fully funded dedicated 
line item appropriation in the DOD budget and exempt JPAC from 
agency-mandated reductions. JPAC's mission is unique, and in 
our view, will be able to operate more efficiently and 
effectively under a direct and dedicated funding stream.
    Construction of a new JPAC facility, which was originally 
set to begin in fiscal year (FY) 2010, has been delayed until 
fiscal year 2011 because the Navy diverted construction monies 
to other priorities.
    It has also come to our attention that a Navy audit team 
recently recommended reducing the size of the facility by over 
16,000 square feet. Such a reduction mostly likely will reduce 
laboratory space and have an adverse effect on identification 
efforts.
    The VFW believes this project should continue to be fully 
funded and remain on the present ground breaking schedule 
without any further delays and recommends the size of the new 
facility remain as originally designed.
    The Armed Forces DNA Identification Laboratory in 
Rockville, Md., is essential, as we all know, to the JPAC 
mission. We are concerned that the Base Realignment and Closure 
(BRAC) process threatens to significantly delay the 
identification process because critical and timely decisions 
concerning facility and funding issues have yet to be made for 
the relocation move to Dover Air Force Base, Delaware.
    The VFW asks Congress to look into this matter and extract 
from DOD how this process is moving forward in a manner that 
will provide adequate facilities and minimize the delay in DNA 
analysis for identification of American remains.
    The U.S.-Russia Joint Commission on POW/MIA Affairs was 
established in 1992 at the presidential level to serve as a 
forum through which both nations can seek to determine the fate 
of their missing servicemen. In 2005, progress was halted when 
the Russian president reorganized its side of the commission. 
On the U.S. side, leaving the House Democrat Commissioner post 
vacant since January 2006 sends a message to the Russian 
government that this body is not interested in the workings of 
the commission. Your help is needed to convince Speaker Pelosi 
to appoint a qualified member of the House to actively serve as 
the Democrat Commissioner.
    Madam Chair, in closing I want to thank you and all the 
members of your committee for your interest, your oversight, 
your support of America's national priority of accounting for 
our missing service members. Your continued support will help 
to bring closure to the families of the missing who have been 
waiting so long for answers and their loved ones. You also send 
a very powerful message to those who serve in harm's way today 
that they will not be left behind, that this Nation will do all 
in its power to return them to their family. Thank you for the 
opportunity.
    [The prepared statement of Mr. Wysong can be found in the 
Appendix on page 48.]
    Mrs. Davis. Thank you very much.
    Mr. Riley. And welcome. We introduced you already.

 STATEMENT OF PHILIP D. RILEY, DIRECTOR, NATIONAL SECURITY AND 
             FOREIGN RELATIONS, THE AMERICAN LEGION

    Mr. Riley. Thank you very much.
    Mrs. Davis. Thank you.
    Mr. Riley. Chairwoman Davis, members of the subcommittee, 
on behalf of the American Legion we thank you for the honor and 
the opportunity to participate in this important hearing to 
examine ways for improving recovery and accounting of POW/MIAs 
from previous conflicts.
    The American Legion believes the following high-priority 
actions should be taken by the U.S. Government:
    Continue to provide sufficient personnel the resources so 
that the investigative case efforts for conflicts from World 
War II forward can be broadened and accelerated.
    Continue to provide necessary personnel and resources so 
field operations can be conducted at a greater rate of 
activity.
    Continue to declassify all POW/MIA information (except that 
revealing intelligence sources and methods) in a form readily 
available for public view.
    Initiate or strengthen joint commissions with Russia, 
China, North Korea, to increase POW research and recovery 
opportunities.
    Establish a joint standing congressional committee to 
ensure continued action by the executive branch in addressing 
the POW/MIA mission with requisite priority.
    The American Legion is concerned the POW/MIA mission is 
fading as a high national priority, and the federal government 
has not provided sufficient resources or attention to the POW/
MIA issues. As a result, many in the veterans community and 
military family members are losing confidence in both the 
commitment and the ability of the federal government to resolve 
the fate of this Nation's many unaccounted for service members.
    Along with this establishment of the interagency group 
created to oversee the U.S. POW/MIA policy, lack of independent 
intelligence and analytical capability dedicated to the POW/MIA 
issue, and efforts to downsize and reorganize the Defense 
Missing Personnel Office when their workload is increasing, 
particularly with respect to Korean War initiatives and the 
opportunities that are now extant, all of these are clear 
examples of how the importance of this issue is eroding.
    The establishment of a joint standing committee is 
necessary to keep the promise to all past, current and future 
service members and families so that they will not feel that 
they are abandoned and necessary to rekindle national interest 
and national will for this morally imperative mission.
    It has been over a decade since we have had close and 
comprehensive examination of our national POW/MIA policies and 
recovery requirements. The 2.6 million members of the American 
Legion urge you to establish a joint standing committee on POW 
and MIA affairs necessary to conduct a full and convincing 
investigation of all unresolved matters relating to any United 
States personnel unaccounted for from our conflicts, wars, cold 
wars and special operations.
    We thank you for this honor to testify.
    [The prepared statement of Mr. Riley can be found in the 
Appendix on page 58.]
    Mrs. Davis. Thank you very much.
    Ms. Griffiths.

STATEMENT OF ANN MILLS GRIFFITHS, EXECUTIVE DIRECTOR, NATIONAL 
    LEAGUE OF FAMILIES OF AMERICAN PRISONERS AND MISSING IN 
                         SOUTHEAST ASIA

    Ms. Griffiths. Thank you Madam Chairwoman and members of 
the committee for the opportunity to again appear before the 
committee. Due to the need for brevity, I will ask that my full 
statement be included.
    I just returned late yesterday from Vietnam, Laos and 
Cambodia on the umpteenth trip that I have been there. I am 
writing a final report on that and would like to also include 
that in the record.
    Mrs. Davis. Thank you. All the testimony will be included 
in the record.
    [The information referred to can be found in the Appendix 
on page 191.]
    Ms. Griffiths. Okay.
    The proposals that were made in Hanoi were particularly 
interesting, and they, I think, warrant serious consideration 
as the basis for increasing JPAC funding and personnel, full 
engagement and support for Stony Beach, the Defense 
Intelligence Agency's POW/MIA specialists, and, if needed to 
ensure continuing priority and focus, fencing of the budgets 
and manpower of both organizations. We will be bringing these 
proposals to the attention of the executive branch at the 
earliest opportunity.
    The first stems from Vietnam's proposal to expedite the 
pace and scope of investigations and excavations, stating clear 
but ambiguously their commitment to meet U.S. requirements for 
additional personnel and willingness to be flexible. Their 
rationale had to do with growth and expansion, development that 
could easily destroy incident sites.
    Early identification of these and other sites is crucial 
regardless of JPAC's ability to schedule rapid excavations. 
Increasing the backlog on these sites is a good thing, not a 
negative as sometimes portrayed.
    When questioned about specific numbers that will be allowed 
to come in, they responded again clearly, but noted that with 
additional commitment of personnel and funding they would match 
the U.S. and with flexibility.
    Now, all senior U.S. officials--the Ambassador, the defense 
attache, the deputy chief of mission and others were with us in 
all of our meetings and were most supportive. We don't have our 
own information to propose to the Vietnamese, so we get it all 
from the Defense POW/MIA Office and JPAC.
    As to the validity of their commitment, I try to be 
optimistic. But time will tell, especially on the use of the 
U.S. Naval Ship (USNS) Heezen, the Navy vessel that was 
promised a long time ago and pledged again by the Prime 
Minister last June.
    In Laos, changes at the top in attitude and receptiveness 
to multifaceted engagement and cooperation were visible and 
welcome. The evolving relationship, including long-sought 
establishment and exchange of defense attaches, is very good 
for the U.S.-Laos bilateral relationship and POW/MIA in 
particular, something we fought for for 12 years, they finally 
agreed and it is now in place.
    A small increase in airlift funding in the case of Laos 
would expedite the effort as well. I am not in a position to 
suggest a number of additional personnel that would be 
required. I do know, in agreement with these gentlemen, that 
JPAC funding is inadequate for the fiscal year 2009 budget. And 
that doesn't even include operations for North Korea if that 
happens to open up.
    So an increase of at least one-third or 20-plus million 
would likely be needed with a plus-up of forensics 
anthropologists and other scientific staff as necessary. We 
would also need more linguists and specialists from Defense 
Intelligence Agency's Stony Beach team to expedite in-country 
research and investigations. You will be hearing from 
Ambassador Ray and Admiral Crisp, so they will have to consider 
this. But it is too soon to expect them to have an answer now.
    Our positions--I know I have to stop--our positions on all 
the questions are in the full testimony that I provided. But I 
would like to say that having Admiral Crisp as head of JPAC has 
been a blessing. It has helped tremendously improve the quality 
and the situation for their own employees as well as 
operations. That and having Special Forces detachment 
commanders have been real improvements.
    [The prepared statement of Ms. Griffiths can be found in 
the Appendix on page 68.]
    Mrs. Davis. Thank you very much.
    Ms. Phillips.

 STATEMENT OF LISA PHILLIPS, PRESIDENT, WWII FAMILIES FOR THE 
                     RETURN OF THE MISSING

    Ms. Phillips. Madam Chairman and members of the committee, 
on behalf of the friends and family of over 78,000 World War II 
service personnel still missing in action, I thank you for this 
opportunity to speak today.
    With my deepest sincerity, I want to tell you that I really 
wish I wasn't here. Not that I wish I had not lost a relative 
in World War II, for we are proud of his service, nor does my 
wish to not be here stem from the fact that my uncle is one of 
the MIA from World War II.
    My wish comes from the fact that family groups such as WWII 
Families for the Return of the Missing should not have to exist 
today. All relatives and friends of all U.S. MIA should be 
confident that their government is working in an objective, 
fair and determined manner to ensure the code of ``no one left 
behind'' is being adhered to with the utmost urgency and 
dedication. I thank you for trying to make this so.
    As a relative of a WWII MIA and a member of a family 
support group that has over the past seven years worked with 
thousands of MIA family members and every U.S. Government 
agency involved, I kindly request that you consider the 
following four points.
    First, the three government organizations primarily 
responsible for the POW/MIA recovery--Defense Prisoner of War 
(DPMO), Joint POW/MIA Accounting Command (JPAC), and military 
service casualty offices--are disjointed and do not effectively 
cooperate, often at times working against each other due to the 
lack of unity of one command, turf wars and personality 
differences as well.
    While DPMO states they are the portal for all family 
members, they do not have control over the individual records. 
Service Casualty controls the records. Nor do they have control 
over research and recovery. JPAC is in charge of the missions.
    A family member should not have to contact all three 
agencies individually just to receive a status on their case or 
to require records to conduct individual research.
    Secondly, the entire process of MIA recovery is politicized 
by personnel within the U.S. Government overseeing the research 
and recovery efforts as well as individuals belonging to 
certain groups. These alliances are well known in the MIA 
community but so far have effectively impeded all efforts to 
improve efficiency or equity.
    Third, lack of congressional oversight enables this 
inefficiency and politicization. The system is unable to 
correct itself. There are too many people too ingrained to 
allow effective and needed change.
    Fourth, JPAC's manning and structure is inefficient. With 
an intelligence and research section of about 66 personnel, 
only five are assigned to World War II, one of which just 
resigned. Likewise, hundreds and hundreds of MIAs remains go 
unidentified in the lab due to the shortage of forensic 
anthropologists.
    Not only is retention a problem in a place such as Hawaii, 
but there appears to be a problem with priority of efforts. 
Forensic anthropologists are forced to split their time between 
field recoveries and lab identifications.
    Every U.S. service member past and present lives by the 
code ``no one left behind.'' This code is much more than a 
code. It is a promise and an obligation from our government to 
those that paid the ultimate price. We owe it to every service 
member and every family member regardless of conflict to uphold 
this code.
    I ask you to please remember this code, this promise, this 
obligation, has no expiration date.
    Thank you.
    [The prepared statement of Ms. Phillips can be found in the 
Appendix on page 75.]
    Mrs. Davis. Thank you very much.
    Ms. O'Shea.
    And I think we can do this, if everybody is okay. We are 
going to run a little late getting over there.
    But go ahead, please. Thank you.

   STATEMENT OF LYNN O'SHEA, DIRECTOR OF RESEARCH, NATIONAL 
                      ALLIANCE OF FAMILIES

    Ms. O'Shea. Okay.
    Today we would like to address a specific aspect of the 
accounting effort. In far too many cases, safe determinations 
have been made in spite of evidence of wartime survival. These 
premature and often erroneous determinations were reached by 
dismissing evidence once deemed credible, resulting in searches 
for individuals at their loss locations in spite of evidence 
that the individuals were moved or being moved to another 
location.
    As part of the accounting effort, the National Alliance of 
Families fully supports House Resolution 111 calling for the 
formation of a House Select Committee on POW/MIA Affairs. And I 
would like to add we would definitely support the call for a 
joint standing committee.
    When the Senate Select Committee on POW/MIA Affairs issued 
their final report in 1993, they recommended their work 
continue. Unfortunately, that recommendation was not carried 
out, and committees such as this simply do not have the 
investigative staff or the resources to continue and expand on 
the work of the committee.
    Among the leads yet to be fully examined are numerous 
sightings of U.S. servicemen from World War II, Korea, and Cold 
War in the camps and prisons of the former Soviet Union. No 
less a figure than the commanding general of Soviet forces 
operating on the Korean peninsula during the war years spoke of 
the transfer of U.S. POWs from North Korea to Moscow. 
Acknowledging such transfers have come from former U.S. and 
Soviet officials and defectors as well.
    All of this suggests that much more effort needs to be made 
before we can truly say we have accounted for our missing 
servicemen. We recognize the difficulties dealing with North 
Korea. However, a thorough review of contemporaneous U.S. 
documents relating to Korean and Cold War losses under the 
direction of a House committee will provide valuable 
information and new leads on the fate of many unaccounted-for 
servicemen.
    Searching for men at loss locations when contemporaneous 
documents indicate the men were captured will not lead to 
recovery. When these recovery operations fail, as they will, 
remains are then declared unrecoverable.
    This is not accounting. It is fiction. For example, in one 
Vietnam case involving four soldiers, DPMO maintains that the 
four were ambushed and killed. They cite a report of 20-30 
rounds of small arms fire heard in area to support their 
conclusions.
    The facts do not support the DPMO analytical review. 
Multiple documents including letters from the U.S. Army to the 
families of the missing men all state the gunshots heard 
involved another squad and did not relate to this incident.
    This brings us to a series of memos written by Sedgwick 
Tourison, a former Senate analyst with the Defense Intelligence 
Agency (DIA), during his tenure as an investigator with the 
Senate select committee. In one memo dated August 1st, 1992, 
Tourison wrote: My review of POW/MIA case files discloses Joint 
Task Force-Full Accounting (JTFFA) and DIA message traffic 
referring to individuals DOD now has information survived into 
captivity. Among the servicemen named are the four soldiers 
DPMO insists were ambushed and immediately killed.
    An earlier memo by Tourison states: My review of Joint 
Casualty Resolution Center (JCRC) casualty files has surfaced 
several messages which list a total of nine American servicemen 
Vietnam has acknowledged were captured alive. Named among the 
nine is Marine Corporal Gregory Harris, whose family is here 
today.
    I know I am a little bit over. I've just got a little bit 
left. Can I go on?
    Mrs. Davis. Very fast. I think what we will do is we will 
go vote right after you finish and come back.
    Can you be very, very succinct, because I know that we 
asked everybody to be?
    Ms. O'Shea. I will wrap it up, yes.
    As I said, Corporal Harris's family is here today. Yet DPMO 
insists in spite of the message that Vietnam acknowledged his 
capture, DPMO insists Corporal Harris died at his loss 
location, and that is where they continue to look for him.
    It is time that we have an honest accounting of these men. 
We have to review all the documents in the files. When we know 
that men are still not at their loss locations, we have to 
accept that and move on to new avenues of pursuit.
    Thank you.
    [The prepared statement of Ms. O'Shea can be found in the 
Appendix on page 80.]
    Mrs. Davis. Thank you very much.
    We are going to go vote. We will be back. I really 
appreciate your patience.
    Okay. We should be back early. It won't be too much longer. 
Thank you very much.
    [Recess.]
    Mrs. Davis. Thank you all for your patience. We are going 
to get started if everybody would just quiet down. Thank you.
    Mr. Metersky, please go ahead.

STATEMENT OF FRANK METERSKY, WASHINGTON LIAISON, KOREA-COLD WAR 
                    FAMILIES OF THE MISSING

    Mr. Metersky. On behalf of the Korea-Cold War Families of 
the Missing, I want to thank you for giving us this opportunity 
to testify here today.
    The Korea-Cold War Families of the Missing fully supports 
any and all of the changes recommended by the current DASD of 
DPMO, Ambassador Charles Ray, that would dramatically alter the 
structure of the POW/MIA community and thereby increase its 
capabilities to identify 180 sets of remains annually for all 
wars combined. This would represent an increase in 
identifications of 150 percent per year.
    The DASD recommends that the lab be moved to the mainland 
because of the serious ongoing short staffing problems that the 
lab has never been able to overcome located in Hawaii.
    A study requested by Office of the Secretary of Defense 
(OSD)-DPMO to address the moving of the JPAC Lab is currently 
being conducted by the Institute for Defense Analysis, and its 
results will be available in the next 45 days. The move to the 
mainland will allow the JPAC lab to acquire a level of 
professionalism that it has greatly lacked for years, which is 
necessary to reach the DASD's goal of 180 identifications 
annually for all wars.
    To complement this effort, the DASD has written a new 
policy paper that redefines the strategy of how to make the 
best use of all of the government's assets used in the recovery 
and identification of remains. This policy paper is currently 
available on the DPMO website.
    There is also a DPMO paper which should be available 
shortly, detailing by percentages how the assets of DPMO-JPAC 
should be used based on today's realities for each of the past 
conflicts.
    To assure that the goal of 180 identifications take place, 
we recommend that JPAC be removed from the oversight command of 
PACOM and that oversight be returned to Army Casualty.
    PACOM, a war fighting command, has shown little to no 
interest in performance levels at JPAC. It has appointed 
incompetent military commanders and allows equally incompetent 
civilian commanders to run JPAC.
    We further recommend that the current and future DASD at 
DPMO be placed in unqualified command of the entire U.S. 
Government commitment to this highest of humanitarian missions: 
the fullest possible accounting of all POWs from all wars, 
past, present and future. DPMO is fully capable of overseeing 
all aspects of this mission, since it is its only mission.
    If these changes are implemented, the Korean War families 
will finally have what they have long been lacking:
    An identification team working full time on the 853 
unknowns buried at the Punch Bowl Cemetery in Hawaii, where 
with recent advances in scientific identification, it has been 
determined that as many as 400 of these unknowns could be 
identified.
    A forensic team working full time on the 540 sets of 
remains from the Korean War that have been warehoused at JPAC 
mostly since 1993.
    A full time investigative and recovery team working in 
South Korea instead of the limited number of operations we have 
now due to the serious lack of qualified personnel at JPAC. 
This team should also be there to work with the South Korean 
version of JPAC, known as Republic of Korea's Ministry of 
National Defense Agency for KIA Recovery and Identification 
(MAKRI), to ensure that no U.S. remains recovered are 
accidentally disposed of as they have been in the past.
    A fully staffed JPAC will allow recovery operations to be 
conducted in North Korea and also in South Korea, not as in the 
past an either/or situation. Currently, JPAC defines this as an 
either/or situation as they continue to cover up its serious 
lack of personnel with a meaningless study of their own.
    I have also----
    Mrs. Davis. Thank you.
    Mr. Metersky [continuing]. Been asked to make a statement--
--
    Mrs. Davis. One last statement.
    Mr. Metersky [continuing]. By Irene Mandra, president of 
the Korea-Cold War Families of the Missing, regarding a meeting 
with Admiral Crisp on April 4, 2008, in her offices in Hawaii, 
accompanied by four members of our organization, with Johnnie 
Webb, the senior civilian of JPAC was in attendance.
    The most important issue to discuss was the moving of the 
JPAC lab to the mainland that the admiral was aware of. When 
this issue was raised, she immediately said she was doing this 
study, while in actuality four months later it was found that 
she was not doing the study.
    To date, the admiral----
    Mrs. Davis. Thank you. Mr. Metersky, I am going to----
    Mr. Metersky [continuing]. Admiral has never explained or 
apologized for this. And is this any way to run a business?
    [The prepared statement of Mr. Metersky can be found in the 
Appendix on page 121.]
    Mrs. Davis. Thank you very much. I appreciate that, and of 
course your whole statement is in the record.
    Ms. Piacine.

STATEMENT OF ROBIN PIACINE, PRESIDENT, COALITION OF FAMILIES OF 
                  KOREAN AND COLD WAR POW/MIAS

    Ms. Piacine. Chairwoman Davis and distinguished members of 
the House Armed Services Subcommittee for Military Personnel, 
thank you so much for having this hearing today and affording 
me the opportunity to be the voice of many family members my 
organization represents.
    We, who are family members and friends and comrades, all 
share one thing in common, that is we wait for the day that we 
can bring our missing loved ones home. We want to understand 
what has truly happened to them. These unanswered questions 
haunt us. Birthdays, anniversaries, special days all are lived 
with emptiness and questions of what truly happed to the ones 
we love and miss.
    With me today, I bring a picture of my uncle, William 
Charles Bradley. He served with the Army during Korean War, and 
he was a medic. He was first listed as killed in action (KIA) 
on December 1st in the area of Kunu-ri, in Unsan County in 
North Korea. Through years of research by the analysts at DPMO 
and with the help of my dear friend and colleague John 
Zimmerlee, my family learned that he was actually a POW and 
died on a march route towards a holding camp.
    Now, we can ask when negotiations resume in North Korea 
that this specific area be researched. It is so important to 
truly know what happens to our missing so that we can move 
forward. His remains are still in North Korea waiting to be 
returned home. Like many, he is homesick in Korea.
    Having served as president of the Coalition of Families for 
over five years, I have received a lot of suggestions of what 
can be accomplished to make the process work a little better.
    We strongly support and endorse plans to construct a new 
facility for the accounting process in Hawaii by JPAC. We 
believe that this will facilitate a reduction in the time of 
identification and thus speed the return of remains and much 
awaited information to the families.
    On a related point, we do not support relocation of this 
activity to continental United States (CONUS). The current 
location is ideal, being in the proximity where the majority of 
recoveries actually take place. A move would also hamper that 
very important international partnership with the South Korean 
Forensic Team which benefits our recovery process. 
Additionally, the cost of such a move in these times of 
financial strife makes no sense at all from the view of the 
concerned taxpayer.
    There is a critical need also to have access to files that 
still are held as classified for over 50 years in the National 
Archives and Records Administration (NARA) at College Park. A 
press release dated March 11, 2009, notes that President Obama 
has approved a $459 million budget for the National Archives.
    One million of those dollars has been allocated solely for 
the development of a new Office of Government Information 
Services created by a 2007 amendment to the Freedom of 
Information Act. It will monitor compliance of federal 
agencies, and ensure that the records of government remain open 
and accessible to the public.
    We ask that you also support House Resolution 111, as we 
believe that it will aid in the much needed assistance in the 
accounting process.
    [The prepared statement of Ms. Piacine can be found in the 
Appendix on page 126.]
    Mrs. Davis. Ms. Piacine, your time is up. I think that we 
will have an opportunity to get back to some of your other 
issues. Thank you very much.
    And Mr. Broward, please proceed.

           STATEMENT OF RON BROWARD, POW/MIA ADVOCATE

    Mr. Broward. Well, Madam Chairwoman and members of the 
committee, thank you for the opportunity to speak with you.
    Turf wars, bureaucratic sabotage and unethical behavior on 
part of a few continue to exist in the POW/MIA mission. To have 
a complete account of what the mission needs would require 
department managers of JPAC to testify under oath before your 
committee. They know the problems that exist and have excellent 
ideas to correct those problems.
    For several years we have advocated for a strong central 
authority to manage the agencies involved in the U.S. 
Government POW/MIA program. Ambassador Ray has worked very hard 
to make the mission more effective. The merging of joint task 
force for all accounting and the central identification lab in 
2003 was a good move. But it has led to some unanticipated 
consequences that need remediation.
    Please refer to a DPMO draft report in response to the 
Senate Armed Services Committee Report 109-254. This DPMO draft 
report was completely ignored by JPAC and PACOM when the final 
report was drafted and sent by DOD to the Senate Armed Services 
Committee. Both of these reports are attached to my statement.
    These two documents tell the problems that exist within the 
current structure. In fairness to Admiral Crisp, she was not 
the JPAC commander in 2007 when the final report was sent to 
the Senate Armed Services Committee. The draft DPMO report in 
just four pages addresses the problems that exist and ways DPMO 
was considering to correct those problems.
    Since 2004, there have been 364 identifications or 73 per 
year. This means it takes seven staff members working full time 
for one year to make one identification. During this time, 65 
percent of recoveries and identifications were from World War 
II and Korea. Yet 75-80 percent of resources were devoted to 
Southeast Asia.
    In the Central Identification Lab (CIL), there are 1,433 
unknown remains. For several years, we advocated for a more 
effective outreach program for obtaining family reference 
samples--that is mitochondrial deoxyribonucleic acid (DNA). The 
Defense Science Board Report of 1995 recommended an aggressive 
outreach program which could be used today. But this report has 
not been accepted.
    Finally, in June 2008 I went to the Joint Chiefs of Staff 
for help. The Joint Chiefs of Staff directed that a plan be 
developed. But as of this date, nine months later, no plan has 
been developed either by the Service Casualty Offices or DPMO.
    In 2003, we presented a plan to JPAC for the possibility of 
associating MIAs to unknowns interred in Punchbowl. In 2004, 
Dr. Holland, the CIL director, saw merit in the plan and hired 
a forensic anthropologist in early 2005 to work on the plan. A 
historian was to be hired, but there were no funds to do so. 
Since that time, there have been seven exhumations, six have 
been identified, and one is pending DNA processing.
    Mrs. Davis. Could you wind up your statement? That would be 
helpful. Thank you.
    Mr. Broward. Yes.
    Twenty-five additional possible associations of MIAs to 
unknowns in the Punchbowl have passed the preliminary dental 
screening. This is research that I do. Yet, there has only been 
two exhumations in the last two years. And it is not the part 
of the laboratory. It is critical shortage of forensic 
anthropologists and professional historians.
    [The prepared statement of Mr. Broward can be found in the 
Appendix on page 140.]
    Mrs. Davis. Okay.
    Thank you very much. I certainly appreciate all of your 
testimony here and your statements. I know it represents 
tremendous background on your parts, and it is very difficult 
to condense that in a few minutes. But as you can tell by the 
size of the panel, I think we are going to have an opportunity 
to get to some of the issues that are important to you.
    But more than that, we really want to try and think about 
where we go from here. And that is going to be the focus, I 
think, of a lot of our questions.
    I want to just ask that we all welcome and ask unanimous 
consent that Ms. Kilroy be allowed to participate in the 
hearing today.
    I am hearing no opposition.
    And also unanimous consent that the statements of Mr. Hall, 
Mr. Phillips, Mr. Tenney and Mr. Jones also be submitted to the 
record.
    [The information referred to can be found in the Appendix 
beginning on page 197.]
    Mrs. Davis. Thank you.
    Many of you have touched on the organizational structure of 
the POW community and the problems that you see with that. Some 
of you have stated the problems. Others have additional 
concerns about the ability to move through and work as 
efficiently as possible under that structure.
    If you could, if you could talk to us a little bit about 
what you see as bringing the POW/MIA community under one formal 
structure instead of the current structure that we have, with 
several entities that play a role in this but don't necessarily 
have the ability to do the work that you see that is required.
    What are some of those issues? What do you see as some of 
the downsides as well to that kind of restructuring?
    Ms. Griffiths. Well, I think it would be the worst possible 
time to consolidate this all in Washington, DC, under the 
Defense POW/MIA Office. First of all, it is a too low level.
    But secondly, the--I have never, in all my 30 years as 
executive director, and umpteen trips to the field with the 
operators who are conducting the missions there--I have never 
yet seen as high an operational professionalism supported by 
tremendous assets and resources. Not enough. And that is 
exactly the wrong thing to do is to have a political based 
organization that is supposed to be policy guidance and 
oversight handling operations that Admiral Keating, the current 
PACOM commander, has been very supportive of in all his 
testimony to the House and to the Senate.
    And, yes, there are budget problems with that. And that is 
the reason that I was suggesting at least the one-third-plus up 
in JPAC's budget, but to ensure that increasing anything in 
Southeast Asia in no way jeopardizes anything on World War II, 
Korea War, Cold War. We need to increase, not have one set of 
circumstances in competition with another, but under no 
circumstances bringing operations into Washington, DC, to cost 
more and charge more in terms of bureaucracy.
    Mrs. Davis. Let me see if anybody else wants to respond to 
that. I think there are differences.
    Mr. Metersky.
    Mr. Metersky. Yes, and serious differences.
    Obviously, I wouldn't have any problems if 75-80 percent of 
the assets were being directed in my, you know, in what I 
advocate. Then I wouldn't--you know, it would be great.
    But the problem is, no matter how much money you throw at 
JPAC, how many buildings you put up, they do not have the table 
of organization that they are supposed to have. And to that 
end, they have never provided anyone, and when it was 
requested, that table of organization, show you what their 
level of personnel is.
    They cannot--when I mentioned in my statement, they can't 
do the job because they don't have the personnel. I don't care 
how much money you want and who you put in command, if you 
don't have the personnel, it is meaningless.
    And structured in Hawaii, it will never do justice to World 
War II, Korea, Cold War. Yes, there is a narrow political and 
personal agenda, which is directed in one area. And that is 
what has just been testified to.
    But if you don't make those structural changes, and in 
command--Admiral Keating didn't even know who Johnnie Webb was, 
who is supposed to be the senior civilian commander at JPAC. 
And if someone in this panel can testify to that.
    Mrs. Davis. I can tell we are not going to have a--no, I 
understand that there are real differences coming out of your 
experiences.
    Would anybody else like to weigh in? And any thoughts--I 
mean, how do you see really resolving----
    Ms. Griffiths. Well, I think it is important to understand 
it all started with the Vietnam War. If it wasn't for the 
Vietnam War, we wouldn't have the organization, the personnel 
and the assets and resources devoted that are today.
    They have not been plussed up in personnel and funding to 
the extent that they are expected and should pursue answers on 
the other wars. Frank is absolutely right: There are inadequate 
numbers of personnel and funding for the expanded mission.
    If Congress and the American people are going to expect 
more from Joint POW/MIA Accounting Command and its lab, the 
first thing they need to do is plus up personnel and plus up 
funding. And right in my little abbreviated statement we talked 
about forensics anthropologists. We can't do any of it--field 
or lab--without increasing that element.
    Mrs. Davis. Yes, I wanted to----
    Mr. Metersky. There is one----
    Mrs. Davis. Mr. Met----
    Mr. Metersky. There is one serious deficiency in that 
argument. You are not going to get the people working in 
Hawaii. They have been leaving Hawaii on a consistent basis.
    So why would you want to fund up something in a location 
that will never be fully staffed with professional personnel--
--
    Mrs. Davis. Thank you, Mr.----
    Mr. Metersky [continuing]. To properly do the job?
    Mrs. Davis. I want to make sure I turn to anybody else who 
would like to comment on this issue.
    Yes, Ms. Piacine.
    Ms. Piacine. I think what is important here is the focus on 
how, again, we can make this a better situation and really do 
what is necessary for the accounting effort.
    I think that we really need to also look at the most 
current progress that JPAC has made. My understanding is not 
that they are losing anthropologists right and left. I think 
currently they set up a college there and are actually 
retaining people.
    So I think, whenever the JPAC folks come in, I think that 
those questions need to be asked.
    Mrs. Davis. Thank you.
    Yes, Mr. Broward.
    Mr. Broward. On the same----
    Mrs. Davis. And I know my time is up. But if everybody 
doesn't mind if we could try and hear from everybody, that 
would be great.
    Mr. Broward.
    Mr. Broward. Yes, thanks.
    When we first went to JPAC about 8 years ago, they had 36 
anthropologists. Today they are down to 19.
    We have been going there about 100 days a year doing 
research. To keep forensic anthropologists there, I don't think 
is possible because attrition of them coming back to the 
mainland to be with their colleagues and for better jobs is 
just going to happen.
    The first thing that you asked was how can you make these 
agencies work with three different commanders? That is 
virtually impossible. You need somebody in charge. You have a 
four-star, a two-star and then Ambassador Ray. Ambassador Ray 
makes policy, but to get JPAC to carry that policy out when 
there is a four-star in charge, that is virtually impossible, 
as we observed over the years.
    That is what I had to say.
    Mrs. Davis. Okay. Thank you. I appreciate that.
    Let us go on to Mr. Wilson now.
    I am sorry, was there anybody who really wanted to weigh 
in?
    Mr. Riley. I just wanted to weigh in that I think the 
military can figure things out when they actually do look at 
what is the mission and what requirements need to be put to it?
    But there are problems of turf. And so what I would ask for 
is that you look at how you do that and have a good study done 
of it which really will match the resources to the identified 
requirements and structure it that way. It hasn't been done in 
ages.
    Thank you.
    Mr. Wysong.
    Mr. Wysong. We can--the VFW doesn't subscribe to the theory 
or the position of moving everything to the mainland when over 
90 percent of the investigative and recovery operations for all 
wars are in the Pacific region. That is just one addition to.
    And I agree with Ann Mills Griffiths on her statements, 
also.
    Mrs. Davis. Great. Thank you very much.
    I am going to move on to Mr. Wilson.
    Mr. Wilson. Thank you very much.
    And thank each of you for your dedication. It is very 
impressive to me on behalf of our veterans and our persons who 
haven't returned how dedicated you are.
    A question for each of you: You have made several 
recommendations on how the personnel accounting process should 
be improved. Going back to my opening statement, I believe we 
must make changes in the personnel accounting system that will 
dramatically increase the number of annual identifications by a 
factor of three to five.
    Achieving this goal would mean an annual identification--
these annual identifications would go from 76 per year to 230-
380 per year. If that significant increase in identifications 
became one of the goals of the personnel accounting process, 
what are the two or three most important changes beyond the 
obvious need for more people and resources to the status quo 
that you believe would have to be made?
    Ms. Griffiths. I think some of the steps that Admiral Crisp 
has been taking--and someone just alluded to the new JPAC 
academy that Dr. Bob Mann is leading; it is in Hawaii. And 
Admiral Crisp has developed several programs for recruiting 
recent graduates in forensics anthropology for compensation for 
education. You will have to ask her all the details.
    What I know is that in my many trips to talk with the 
anthropologists, including the younger generation, new 
recruited anthropologists, the people out in the field--there 
were five that we talked to just on this one trip when we went 
out to the field in Laos--four or five. But they love their 
jobs, love deploying to the field.
    Now, yes, they shouldn't have to deploy as much as they do. 
And yes, we need more anthropologists and other odontologists, 
different kinds of scientists to participate in these things. 
They don't all have to be Ph.D.s.
    With this new JPAC academy they are forming including 
exchanges with a Thai university in Konkan. They are going to 
be getting constructive credit. They are developing all kinds 
of imaginative solutions for getting more anthropologists into 
the program and for advancement within that program to expand 
their numbers.
    So that is all, to me, very positive. And I think that 
absolutely is crucial to the identification process. In fact, 
the league supports additional laboratories that would be 
devoted solely to--and some of those could be in the 
continental U.S.--adjunct labs to focus strictly on 
identification of remains, not deployable labs that do all the 
fieldwork but strictly focus. And that could be in an addendum 
to the existing laboratory structure. But so long as they are 
under the Joint POW/MIA Accounting Command so that they don't 
become politicized or controlled by policy ups and downs in the 
community but in fact continue to focus on the work at hand.
    Mr. Broward. The number one thing I believe that can be 
done is you have to professionalize the staff, be it more 
professional historians, maybe more forensic anthropologists. 
The reason that these fellows aren't being worked on, there are 
items to be done and exhumed, it is because there is not the 
staff the staff there to do it, either professional historians 
or anthropologists.
    It is a shame. Some of these go back over two years. They 
have been approved by an odontologist. Let us get them out of 
the ground. They still sit. And I think that is--that really 
disservice to the officers missing.
    Regard to funding, I don't think you need to increase the 
funding. You just need to professionalize the staff. There is 
so many people that work there. They have, I think, 66 
analysts. And I really don't know what the analysts do. They 
are good people. I like them.
    But who gets the job done is either a professional 
historian or forensic anthropologist. That is who the 
identifications come from. The historians tell you where to go 
to find remains. Thank you.
    Mr. Riley. I would say one other thing to look at is the 
diplomatic piece: Who can really influence the countries that 
we need to influence and make the arrangements and the 
coordinations? I think we have to look at that piece and look 
at it hard.
    Mr. Wilson. And aside from the obvious problem of dealing 
with Democratic People's Republic of Korea (DPRK), which other 
countries do you think we need to work with more closely?
    Mr. Riley. I will defer to Ann on that.
    Ms. Griffiths. Well, clearly we need to focus at a higher 
level as we did in earlier years. I don't know that we even 
have. I have been gone for two weeks to Asia.
    But assistant secretary, that level of intervention on this 
issue in all the countries, including Russia--North Korea 
obviously is a problem--but Vietnam, Laos, Cambodia. But it 
needs to be engagement on a humanitarian basis regardless of 
all the political and other issues to push for the kind of 
priority by those governments to give what they can in 
response.
    Because we just learned that the certification decision on 
Vietnam is being dropped in Congress so that there is no longer 
a reason that the Administration will have to certify that 
Vietnam is doing what it can and cooperating as they should to 
unilaterally provide records. It was in there from 2001 until 
now. And we understand now it is being dropped.
    Mr. Metersky. Excuse me, a comment about North Korea.
    As of yesterday, ``North Korea's ready to reengage on the 
POW/MIA issue. And we didn't shut it down.'' And North--from 
the North Korea Ambassador Kim Jong Il, ``You shut it down in 
2005, your country.''
    So as far as getting back into North Korea, it is a U.S. 
decision. And that is, you know, that is a fact. You will never 
increase recovery of remains and identifications if you do not 
have the personnel. I don't care how many buildings you put up.
    And if you want to find out for yourself that I have been 
telling this committee for a long time now, go to Hawaii and 
talk to the personnel on the ground. You will find out that a 
lot of what you are hearing supposedly being done, quote-
unquote, by Admiral Crisp is just a smokescreen.
    Nothing positive has ever come out of any of her 
recommendations. And I will testify under oath to this. And if 
you go out to Hawaii, you will get the answers you need to make 
an intelligent decision.
    Mrs. Davis. Thank you.
    I move to Dr. Snyder.
    Dr. Snyder. Thank you.
    Mr. Wysong, during the vote I took your written testimony 
over with me to the floor. And I was intrigued by the comment 
on something I am not familiar with, the U.S.-Russia 
Commission. And lo and behold there was the speaker. And she 
was talking to someone, but her staff person was standing 
there, and I said, I am going to give you--and I took along 
your written statement, too, Mr. Riley. You mentioned it also. 
And I opened the page and said, these folks just testified that 
there is an unfilled position here.
    And the staff member I talked to has been around here for 
awhile. He said, you know, ``we have a list.'' He received a 
list of all the statutorily authorized appointments. And he 
says, this is not on that list. And he is going to look into 
it. It could be an oversight. But when you think about it, 
elected officials love to appoint people. I mean, there is no 
reason for her not to do that. This would be a--I mean, these 
kinds of things mean something to her.
    So anyway, one of her staff members has your written 
statements, the two of you, in his hand. And so when we get 
back from the spring recess, we can follow up on that. But he 
said, and he seemed to be very familiar with it when he said, 
these are not--he said, I have seen the list. I have the list 
of appointments, and this is not on that list. So we will 
follow up on that.
    Mr. Wysong. Thank you for that quick action, sir.
    Dr. Snyder. Oh, yeah, well, every once in awhile.
    I just want to give a, just an open-ended question. But 
maybe we will start with you, Mr. Broward.
    I would like for you, each of you, to tell us how you got 
involved in these issues, and what do you tell people about why 
this is still important? I mean, we think it is important. But 
I suspect you run into people in your, you know, your friends 
back home who say, ``Well, that is a long time ago. Why is this 
so important?''
    I would like to start with you, Mr. Broward, about how you 
got involved in this and why this should be important to all 
Americans.
    Mr. Broward. I got involved when I learned that there was 
such an organization called Cell-I. After the Korean War, we 
were told not to talk about MIAs. It might cause problems with 
Russia.
    I was with Marines in both North and South Korea that are 
missing. Some of them I was raised with. And it has been on my 
mind for many years. So that is how I got involved, to try to 
do research and bring some of these--we were all very young at 
that time--to bring them home. So that is how I got involved.
    Ms. Piacine. Thank you for this opportunity. I got involved 
in this issue when I, I guess it was around 1999, and my mother 
and my aunt both donated the mitochondrial DNA (mtDNA) 
reference sample, because my uncle obviously had not returned 
from the Korean War. And so I got involved in also the 
commemoration of the Korean War and went out.
    I think that it is very important for all Americans to care 
and be concerned about all those that are still unaccounted 
for. For one thing, every day when they get up and they have 
all these freedoms, they need to remember that those people 
have given the ultimate sacrifice. They are not back home with 
their loved ones.
    And I would just like to see, not just my uncle, but 
everybody be able to give all of their loved ones the type of a 
funeral that they are so deserving of.
    And also, we have to also remember that all those people 
that are out there serving right now and intend to serve in the 
future that, you know, how can we send them out if we are not 
doing what we always have promised, not to leave anybody 
behind?
    It is our obligation. It is our duty to account for every 
single person.
    Mr. Metersky. Myself, 25 years ago, I was sitting in 
California, and I opened the paper, and there was a Vietnam 
demonstration to their credit advocating the POW/MIA issue. And 
I read the number 2,200-and-something, and I said, ``My God, 
there is over 8,000 from the Korean War. What is wrong with the 
Korean War MIAs? Where is anybody advocating?''
    The following Monday when I returned to New York, I picked 
up the phone. And the rest was history. And that is how I got 
involved. I am a Korean War veteran. I have memories of 
carrying dead out of Korea that I have lived with for over 50 
years. And I have been advocating for the Korean War MIAs.
    And if we don't do the right thing, it sends a message to 
our men in uniform, ``Hey, once you are gone, you are 
forgotten.'' And that is not what this country is supposed to 
be about. This issue actually was started in 1954 by government 
commitment to the men who died for this country. We owe them 
for their commitment, and silence, and the ultimate sacrifice 
to do whatever we can to get the fullest possible accounting 
from all wars.
    Dr. Snyder. Ms. O'Shea.
    Ms. O'Shea. I got involved like many other people in the 
late 1960s and early 1970s by buying a POW/MIA bracelet. And I 
drew the name--it was luck of the draw--of a young Army 
sergeant who had disappeared.
    And back then, in my naivete, I believed that he was, you 
know, just one person; it was an isolated incident. And as I 
came to learn, he went missing with two other men, and I 
thought to myself, ``How is it possible that the Army could 
lose track of three men at once?'' That is how naive I was.
    And I would come to learn that, you know, whole teams and 
whole aircrafts would simply disappear with no evidence of what 
happened to these men. And I decided I was going to find out 
what happened to this particular individual. And I started 
researching.
    Eventually, I joined the National Alliance of Families when 
they formed. And I continued my research with them. We did 
learn--and my guy and his three teammates were recovered. They 
are resting at Arlington now.
    And, in fact, it was 11 years ago this month that we came 
and buried them at Arlington. And that is something every 
family should have. It is a commitment we owe to every fighting 
man that we will bring them home.
    And I am sad, and I am embarrassed to say it is a 
commitment our government has not lived up to. We see today 
that, looking back, it would have been so easy after World War 
II to recover the men missing, especially in the South Pacific, 
because we are finding aircraft relatively easily and pretty 
often in the South Pacific.
    If we had taken a harder stance at Panmunjom and demanded 
our POWs, if we had taken a harder stance on the intelligence 
of POWs crossing into the former Soviet Union and China, 
perhaps we all wouldn't be sitting here today. A lot of the 
families would have the answers. They deserve the answers.
    And we are going to keep pushing at Congress. Sorry. But we 
are going to keep pushing. And we are going to be seeking the 
answers. We are seeking declassification, because in spite of 
what you have heard, all the information is not declassified 
and available to the families.
    Thank you.
    Dr. Snyder. Ms. Phillips.
    Ms. Phillips. I became involved in this doing research on 
my uncle.
    What I found out was my uncle was shot down, had burns on 
90 percent of his body, taken POW, received beatings on top of 
that, and died in the prison camp weighing 80 pounds. After the 
war, his remains were placed on a C-47 with other POW bodies, 
and that C-47 went missing with the POW bodies.
    However, what I found was a bigger picture that there were 
78,000 men who their own stories to tell. When I started going 
to the family update meetings, I was told--you know, and I 
questioned why is nothing being done for World War II?--I was 
told I would have to form a family group if I wanted anything 
done. And that is what I did with other family members.
    A big problem World War II families have are our records 
are still classified. The X-files are not opened. Although I 
found out we are now opening the X-files. And World War II 
families have to do their own research, provide documentation 
to take to JPAC before anything can be done. We have to do our 
own research and provide the documentation--photos and all of 
that--before they will even look at a case.
    And that shouldn't be the case. The family members should 
not be paying out of their pocket to fly over to another 
country to find their relative in order for Congress to do 
something to bring our men home.
    Thank you.
    Dr. Snyder. Ms. Griffiths.
    Ms. Griffiths. My brother has been missing in North Vietnam 
since September 21st, 1966. To be a member of our organization, 
that has to happen. I took over from my father, who was a 
former executive director. And after a couple of years, I have 
been executive director now since 1978--so over 30 years--and 
have been to Vietnam, Laos and Cambodia countless times, and 
was a member of the interagency group, which I believe Mike or 
Phil, one referred to, with a top secret clearance that was 
discontinued in 1993.
    So even though we probably won't ever get anything on my 
brother, I believe in this obligation. And I think the league's 
legacy is important to ensure that those who serve now and in 
the future have the absolute confidence that our government 
won't walk away from trying. So, not everyone will ever be 
accounted for, and we all know that.
    Mr. Riley. Well, we work for an organization that since 
1919 has been concerned about taking care of our brethren.
    From a personal standpoint, I can tell you I can't imagine 
not having assurance in my mind that in fact my country is 
going to follow and take care of me whether I am dead or alive, 
having been in combat and thought about that. You are scared to 
death of becoming a POW, but you are also--I mean, you just--
your frame of mind if you didn't think your country was going 
to get you back to your family one way or another was just 
unimaginable to me.
    And I think it would absolutely cut at the core of our 
ethic. And we are lucky that we have people that go out and do 
what they do. But this is a big part of it.
    Mr. Wysong. As a Vietnam veteran, this issue has always 
been important to me.
    But it really came to light back in the late 1970s when Ann 
sent me a bumper sticker that said ``Hanoi: Release Our POWs/
MIAs.'' And I really got involved in it.
    And since coming to Washington to work for the VFW, this 
has been an issue under my directorate. But the VFW has been 
concerned about our missing for many, many years.
    We have traveled--our national officers and Washington 
staff have traveled to Vietnam, Laos and Cambodia every year 
since 1991 to press the governments of the host nations for 
better cooperation and to allow us more access to their 
military archives to find the answers.
    Over the last five years, we have traveled to the PRC--the 
People's Republic of China--spoke with their ministers of 
defense, ministers to foreign affairs, to press upon their 
government for better cooperation. To Russia the last five 
years to meet with their high-level government officials to 
press upon them the importance of this issue and how important 
it is to the American people.
    And I believe the common thread here--why is this 
important?--the common thread between all of us is the answers 
for the families, to bring closure to the families, and to send 
the message, as I said in my oral, to the men and women serving 
today that you will not be left behind.
    Dr. Snyder. Thank you all for your time.
    Thank you, Madam Chair, for your indulgence.
    Also, Mr. Wysong, it is reassuring as elected officials to 
know the power of a bumper sticker. [Laughter.]
    So thank you all for your eloquence. I appreciate you.
    Mrs. Davis. Thank you.
    Mr. Johnson.
    Mr. Johnson. Thank you, Madam Chair.
    And I would like to--first of all, I will apologize for not 
being here on time. But there were several other things that 
prevented me from doing so. But I will tell you--and I don't 
fully understand what you or family members or those that you 
represent, the kind of trauma, it is only natural for you 
people to have, when they can't properly funeralize their loved 
ones for whatever reason.
    And I am gaining a better understanding, as many people 
here in Congress will continue to do, particularly as we hold 
these oversight hearings. And I would like to point out to you, 
if it has not already been pointed out, that this is the only 
the second hearing in the last 11 or 12 years. And the other 
hearing took place in the 110th Congress, and we are now in the 
111th.
    I would say that there is some definite momentum here for 
there to be--it has already been a new look. And I appreciate 
the chairwoman for bringing this up today. And I know that it 
will continue to be an issue. And someone said, once you are 
gone, you are forgotten. I don't think that that is going to 
hold true in the future.
    And I don't know how many of Congress people have the 
missing in action flag up as you enter their office along with 
the American flag, but there is quite a few, I believe. And my 
office is one.
    But I would like to think, you know, that represents people 
on both sides of the aisle who are attuned to this issue. And 
so, you know, I am sure that it will get more coverage.
    I appreciate you all for keeping the issue alive, because 
it is something that I am sure the people who are directly 
affected, you know, need advocacy so that we can bring them--
and I hate to use this word because it is so overused--closure.
    So that is--I have no question, Madam Chair.
    Mrs. Davis. Thank you for your comments, Mr. Johnson.
    Ms. Kilroy.
    Ms. Kilroy. Thank you, Chairwoman Davis.
    And thank you, members of the panel. I particularly want to 
thank those of you who have served in our military and served 
in our conflicts. I want you to know that we honor and respect 
your service. And I believe that we owe a debt as a Nation to 
those served and to their families. And we need to recognize 
that, I think, the families also sacrifice a great deal when 
loved ones are called up. And when loved ones don't come home, 
that loss is excruciating.
    I am the daughter of a World War II veteran who served in 
the Pacific theater, who served in New Guinea. He came home, 
but his brother Leo did not come home. My grandmother didn't 
have any hope of having remains returned. He was lost at sea. 
But I am sure that would have meant a great deal to her if that 
would have been possible.
    And another uncle was a Korean era veteran. And, of course, 
I grew up in the time of the Vietnam War conflict and, you 
know, my good buddy from a couple doors down was lost in action 
in Vietnam. And that had a very big impact on me as a teenager 
high school student.
    So this is an important hearing today. And I thank the 
chairwoman for allowing me to participate even though I am not 
a member of this committee. This is an issue that is important 
to us and to our country.
    And I listened very carefully to your testimony and to your 
answers to the question about how you got involved. And it 
seems to me that you are very concerned that each soldier got 
what we promised him as a Nation, that those families got that 
respect that they were due to have their loved one's remains 
come home, and that it also meant something to soldiers 
currently serving that we weren't going to leave them behind in 
a foreign conflict.
    So what it says to me is that regardless of conflict that 
you believe that each of you would be committed to trying to 
find and bring home the remains of our soldiers. And that would 
be a good reason not to have any particular divisions between 
which conflict somebody served in or was lost in.
    And so I was wondering if you had thoughts about the 
allocation of resources. You know, Ms. O'Shea referenced the 
planes that have been identified in the Pacific theater from 
World War II.
    And that is recently something that has been brought to my 
attention because the remains of a resident and service member 
from my 15th congressional district--Second Lieutenant John 
Funk, who was a navigator aboard a C-87 aircraft in 1943 that 
disappeared in that dangerous area known as the Burma Hump, the 
region between India and China. His plane was returning from 
airlifting supplies, equipment and personnel to the Chinese 
government and allied forces after the mainland route through 
Burma was seized by the Japanese. These missions were certainly 
key to getting supplies to the coast and to helping our Pacific 
theater operations.
    It was called the ``forgotten theater'' of World War II. 
And I just want to make sure that these men are not forgotten 
now. So I was wondering, particularly since you made the 
comment about the planes that have been identified, you know, 
what we can do to expedite the investigations of those planes 
that were gone down and to bring home the remains of people 
like Second Lieutenant John Funk?
    Ms. O'Shea. More funding and more staff. We need to have 
additional teams that are able to go out, not at the expense of 
another conflict but rather to elevate all conflicts, all wars, 
to the same level, the same priority, the same professionalism. 
And fund it so that you can have teams going out and recovering 
the World War II, the Korea losses. While North Korea, there is 
a problem; we all acknowledge that. There are many American 
servicemen resting in the grounds of South Korea. They need to 
be brought home. They need to be identified. We need a project 
of such massive proportions that will allow this mission to be 
accomplished.
    And I would also like to just add that while we are 
focusing on recovering and identification of remains, I would 
like to go back to my testimony and remind this committee that 
there are cases where the individuals survived their loss. 
There is intelligence that they were being moved or at other 
locations. And searching for those individuals at loss 
locations, quite frankly, will be a waste of time. We have to 
determine who those men are. We know who some of them are. But 
we have to reinvestigate those cases and pursue new avenues 
with the governments that are accountable for these men.
    Mrs. Davis. Ms. Kilroy, I am going to go ahead and let the 
rest of you respond to that question.
    I wanted to ask that as well, about the flexibility and 
changing the strategy that we have before us today. And so if a 
few of you want to comment on that, and then we are going to 
break for a vote. And we are going to take the next panel after 
that.
    So I just wanted to let you know if you wanted to weigh in 
on this question in terms of the strategy ``most recent 
first,'' which is, you know, up in terms of a discussion, 
really, of how we look at this strategy differently.
    Ms. Phillips. I think a couple of things that would help is 
new technology, like the ground penetrating, you know, radar 
side scan sonar, and research.
    World War II, we have to do our own research. All the 
records are here in DC. I don't know if you want to hire an 
independent group to help JPAC with that. You know? I mean, you 
are going to have to fly someone from JPAC up here to look at 
records. It is kind of crazy. And even if DPMO looks at the 
research, you are not always sharing information.
    And we do need new technology like the ground penetrating 
radar for the aircrafts that you are talking about being down, 
or side scan sonars of aircraft underwater.
    So I wanted to add that, and----
    Mrs. Davis. Okay.
    Ms. Phillips [continuing]. More research needs to be done.
    Mrs. Davis. Thank you.
    I wonder if anybody wants to respond to a change in 
strategy quickly, because we are going to have to stop.
    Go ahead, Mr. Broward, I think you had your----
    Mr. Broward. I don't know whether you would call this a 
change of strategy, but there is new technology called 
radiograph matching that is terribly important----
    Mrs. Davis. Right.
    Mr. Broward [continuing]. Developed in January. And it is 
going to need funds for research and development.
    Currently, the JPAC budget does not have any funds for 
research and development. And I think that with such a 
possibility of identifying so many unknowns with this new 
radiograph matching technology that it is really going to need 
some attention both for hiring forensic anthropologists and 
historians with this technology. But they are going to need 
funding to develop the software.
    Ms. Griffiths. What I wanted to say is, quickly, and 
agreeing with the technology, there have significant advances.
    What Ms. O'Shea said about people last known alive, those 
require investigations, and many of them were alive and on the 
ground. We have been talking in terms totally of remains today, 
which always distresses me. But it is one of the reasons that 
the Defense Intelligence Agency specialists that are 
investigators are so important to the Vietnam War effort.
    But I would point out, too, in terms of strategy and 
timing, it isn't just looking at remains, recoveries from 50 
and 60 years ago. In the Korean War, there were people last 
known alive that haven't come back. And in the Vietnam war. 
That is not true, obviously, on World War II. And yes, there 
are about 30,000 that went in sea--maybe it is more; I don't 
know the exact numbers--that are considered buried at sea.
    But there is a wide variety here. And each war needs to be 
addressed in its own circumstances, including investigations on 
people who were last known alive. And that is not to say they 
are all running around alive somewhere today. I am saying those 
have been the highest priority of our government.
    Some of us differ with how serious it has been. But 
nevertheless, it has been a separate priority, and that is the 
focus on most recent wars because of last known alive cases 
being the priority. As they should be, I believe, in the Korean 
War as well.
    Ms. O'Shea. If I may, I would just like to add to that that 
our organization does believe that there were last known alives 
from World War II. There is evidence in the gulag study that 
was done by the Joint Commission Support Directorate that is 
the investigative arm of the U.S.-Russia Joint Commission that 
talks about that. As Ann said, we don't know that they are 
alive today. But certainly there is evidence that needs to be 
looked at because if we are looking for those men at the loss 
locations, we are not going to find them.
    Mrs. Davis. Thank you.
    Ms. Piacine.
    Ms. Piacine. Yes. I would like to say that what I think is 
really important in the accounting process and to move forward, 
we definitely need your support desperately on having our files 
declassified, even though they have been--there is a 
presidential order out to do so--this has not been done.
    And most recently, a research team from the Coalition of 
Families went to the National Archives and went through boxes 
where they had multiple slips that just the files had been 
taken out, and they were debriefing files. And no one has even 
looked at these files for over 15 years. We really need your 
help.
    Thank you.
    Mrs. Davis. I want to thank you all so much for your 
participation today. It has been very important for all of us 
to hear from you. And, as I said, we do have your full 
testimony, but we certainly welcome any other written statement 
that you choose to give us and to stay in touch and engaged as 
you certainly have been. And we hope to be very responsive to 
that.
    When we come back, we will have the second panel. And you 
are certainly all, of course, welcome to stay.
    Thank you.
    [Recess.]
    Mrs. Davis. Thank you, Ambassador Ray and Admiral Crisp.
    We want to welcome you to the hearing today. And we know 
that you have probably been listening in on the testimony 
earlier. We certainly appreciate the fact that we had everybody 
attending. And now we look forward to hearing from you. Please 
proceed.

STATEMENT OF HON. CHARLES A. RAY, DEPUTY ASSISTANT SECRETARY OF 
 DEFENSE FOR POW/MISSING PERSONNEL AFFAIRS, U.S. DEPARTMENT OF 
                            DEFENSE

    Ambassador Ray. Thank you, ma'am.
    Thank you, Madam Chairwoman, Congressman Wilson. I very 
much appreciate you giving us the opportunity to lay out our 
views toward improving the critical mission of accounting for 
missing Americans from all our past conflicts.
    I know your time is limited, so I would ask that the 
extended version of my remarks be entered for the record.
    Your invitation is most welcome at this time. One of the 
primary reasons our agency was formed in 1993 was to ensure the 
families of all our MIAs and the public in general received 
all--I repeat, all--the information that the government had 
assembled on their cases.
    In my agency alone, we devote approximately one-third of 
our resources to keeping the families, the public and the 
Congress fully informed. Also, as you may know, families are 
entitled to receive information previously classified, which 
has had the sources and methods removed.
    We take this commitment very seriously, and we work hard to 
prove it every day. We continue to strive to provide equitable 
treatment to all groups representing all conflicts. Our 
strategy has been revised to reflect sound management and 
business practices and to honor the sacrifices of all of our 
personnel regardless of the conflict.
    Now, when I meet with a group of family members, as I do 
virtually month, I don't see conflicts. I see Americans who 
have sacrificed so much for this country and who are entitled 
to have that sacrifice honored and respected.
    There are more than 80,000 Americans missing from past 
conflicts. Each month, when we hold our family updates in 
cities and towns across the country, we see the grief and the 
pain that so many of our families still suffer.
    So long as this Nation remains committed to finding its 
missing sons and daughters, we will continue to carry out this 
mission.
    We are looking at ways to improve how we carry out our 
mission, keeping the promise that this government has made to 
account for our missing. But in the first instance, our goal is 
to bring our people back alive.
    To be sure, our primary obligation is to bring everyone 
home alive from foreign battlefields. I am sure you have seen 
the heroic stories of those rescued from today's conflicts. But 
a little known fact is that there is only one soldier missing 
from Iraq and none from Afghanistan, when you compare that to 
the 80,0000 who are still missing from Vietnam, the Cold War, 
the Korean War and World War II.
    We see this dramatic shift in response to at least two 
areas. The first, of course, is technology, which enables us to 
keep track of our own people on the battlefield, and to bring 
them out of harm's way if need be. The second is the fact that 
there are lessons learned from previous conflicts applied to 
the combat soldiers of today.
    For the future, I believe we need to leverage technology 
more effectively to include using information technology to 
communicate better with our constituents and to gather the 
information that is essential in resolving cases. We must avoid 
getting locked into fixed strategies or ways of doing business.
    Today's mission of accounting for the missing arose from 
the government's efforts during and following the Vietnam War. 
But although warfare has changed, and technology has changed, 
the pain of a missing loved one has not. I see that every day 
as I interact with our families. The effort to account for the 
missing from all conflicts is one promise that I will never 
abandon.
    In order to effectively serve our constituents, we must 
constantly evaluate and assess our methods of operations, 
resource bases and command relationships to ensure they are 
doing what must be done if we are to continue to be successful.
    While we must continue to honor the sacrifices of our 
heroes of past conflicts, we must also keep our eyes on both 
the present and the future. We owe a debt to those currently 
serving and to those who will serve in the future to do all we 
can to assure them that we will keep the promise.
    We need to encourage out-of-the-box thinking on this issue. 
And while we shouldn't reject tradition just for the sake of 
doing things differently, neither should we allow tradition to 
become a straightjacket to innovation.
    I have touched, I know, on several issues directed at our 
future efforts and our future commitments, and I will be more 
than happy to take your questions.
    [The prepared statement of Ambassador Ray can be found in 
the Appendix on page 172.]
    Mrs. Davis. Thank you. Thank you.
    Admiral Crisp.

 STATEMENT OF REAR ADM. DONNA L. CRISP, USN, COMMANDER, JOINT 
                   POW/MIA ACCOUNTING COMMAND

    Admiral Crisp. Madam Chair and members of the committee, 
thank you for this opportunity to appear before you. And I am 
pleased to update you on the Joint Prisoner of War Missing in 
Action Accounting Command after my first year as commander, and 
following the last appearance nine months ago.
    First, on behalf of the men and women of JPAC, I want to 
express my sincere appreciation for your continued support for 
personnel accounting efforts. You heard from family members, 
veterans and concerned citizens at the first panel, each from 
very diverse backgrounds and perspectives. All are important to 
us, and we listen to their recommendations, and we appreciate 
their support to our humanitarian mission.
    Delegation visits like Ms. Ann Mills Griffiths and those of 
veteran service organizations serve to reinforce the United 
States Government's commitment to the POW/MIA mission and 
demonstrate the importance of our issue to the families of 
those who remain unaccounted for as well as the veterans who 
served with these men.
    In addition to our field operations, much of my focus in 
JPAC has been to structure it to effectively accomplish our 
mission and to provide a quality of work environment for the 
men and women of JPAC, and to establish processes that will 
sustain and improve the organization and mission in the future.
    In 2008, we worked in 15 countries and completed 72 
missions. We identified 80 Americans who lost their lives in 
the service to our Nation. This is a 14 percent increase over 
the 2004-2007 identification average.
    This year, we are working in 12 countries, conducting 62 
missions to account for missing for World War II, the Korean 
War, Vietnam, and have already identified 29 individuals.
    In addition to continuing our operational focus, we have 
also concentrated on process improvements, both in our 
partnerships with foreign countries as well as internal to 
JPAC. We conducted a 20-year assessment with the Socialist 
Republic of Vietnam.
    We have also realized very positive progress with the Laos 
People Democratic Republic and how we conduct our joint field 
activities, enabling us to save money and maximize the team's 
time on site. The Kingdom of Cambodia continues to be extremely 
supportive of our humanitarian mission, and we also received 
support from the Republic of Korea, Papua New Guinea, the 
Republic of India, the People's Republic of China, and many 
other countries throughout the world.
    In the area of JPAC improvements, recruiting and retention 
of our scientific staff has been my focus for the past year. We 
have implemented several programs, such as student loan 
repayment, creation of developmental positions to leading to 
senior positions, the establishing of a forensic science 
academy to name a few.
    We are already realizing results from these initiatives. 
Federal employment in the laboratory is 78 percent, with 15 
full-time fellows, that brings the laboratory numbers 110 
percent of our workload requirement. Our scientists continue to 
excel in research and development of innovative forensic 
identification tools and techniques.
    Over the past two years, our focus has been on video 
superimposition and radiographic clavicle bone matching. Once 
validated and accepted in the forensic science community, our 
identification rates should increase. This new identification 
technique is going to make a significant capability applicable 
to the Korean War unknowns.
    Since my last opportunity to speak with you, we have more 
than doubled our total laboratory analytical space. When I 
departed Hawaii last week, the remains of more 80 American 
service members were under analysis. This is almost twice the 
number that were under analysis at this time last year.
    By this summer, I expect 50-60 more remains unilaterally 
turned over by the North Koreans in the early 1990s and often 
referred to as K-208 to be completely moved to the facility at 
Pearl Harbor. This will more than triple the analytical table 
space. And for the first time in 19 years, the scientists will 
be able to analyze these remains in detail without interruption 
of other cases.
    We are quite pleased with the additional space, and we look 
forward to the completion of our military construction project, 
when our entire organization will be in the same location. And 
that will increase capabilities and effectiveness at JPAC.
    This is a brief update on JPAC, and we believe we are 
poised for the future, we are in the right location, we have 
the full support of the United States Pacific Command and the 
Defense Prisoner of War Missing Personnel Office.
    Madam Chair and members of the committee, thank you for 
this opportunity, and I await your questions.
    [The prepared statement of Admiral Crisp can be found in 
the Appendix on page 183.]
    Mrs. Davis. Thank you very much.
    And, of course, we are here today to try and see how we 
move forward, recognizing the gains that have been made and 
some of the difficulties in trying to bring together so many 
interests when it comes to the issue that we are dealing with, 
which we know is just so terribly important, I think, to our 
country.
    I am wondering, Ambassador Ray, going back to the structure 
question that we talked about in the earlier panel, will the 
study by Institute for Defense Analyses (IDA) assess the POW/
MIA community organizational structure to see if changes, in 
fact, do need to be made?
    Ambassador Ray. Madam Chairman, the IDA study is focused on 
how to improve the rate of identifications.
    Referring to comments made by Congressman Wilson in his 
remarks, we have recognized that we do need to look at 
increasing the rate. Given the circumstances of the conflicts, 
the Vietnam War sites are deteriorating at a remarkably 
accelerating rate. World War II, those family members that we 
are aware of are getting no younger day by day. And so we owe 
it to them as well as to honoring those who have sacrificed for 
the country to do all that we can to increase the pace.
    What we don't have a very firm handle on at the moment is 
to what level can we increase this. We are currently doing some 
70 per year. The study initially focused on a number of 180 per 
year. That is subject to modification as we look at what is 
feasible.
    And it is looking at the entire identification process. It 
is too easy--or I should it is rather the view that if we make 
a change in the lab that we will materially affect the 
identification process ignores the fact that there are other 
elements that play into it.
    If you increase the numbers, for example, of bone cuttings 
in the lab of remains for identification (IDs), you also have 
to consider the impact on the workload of the Armed Forces DNA 
Identification Lab. You also have to consider how much research 
support, how much analytical support has to go into working 
with that anthropologist to make that ID.
    So what the firm that is doing the study has been directed 
to do is to look at the entire process, look at what is 
feasible----
    Mrs. Davis. Are they also focusing on the structure?
    Ambassador Ray. They are focusing on the structure, the 
funding, and the manning of the lab and other aspects of the 
identification procedure to see how we can achieve increases.
    Mrs. Davis. Okay.
    Do you have some thoughts as well, though, when creating 
more of a defense field agency?
    Ambassador Ray. Well, I constantly look at how we are 
organized. And, of course, one of the ideas that I have given 
to people to look at would be, is it more effective to have a 
defense agency concept as opposed to having a geographic 
commander responsible?
    There are no--I am not wedded to one way or another. What I 
have asked people to do is to look at the various 
configurations that are possible and try and decide what is the 
most effective way not only to do the mission that we currently 
have, which is to account for the missing from the wars of the 
past, but to configure ourselves to position ourselves so that 
we can effectively serve the Nation for current and future 
wars.
    Mrs. Davis. Thank you.
    And just turning to Admiral Crisp before my time is up: Do 
you think a more direct funding stream would help JPAC receive 
the required resources that it needs?
    Admiral Crisp. Right now the funding stream is called out 
in the budget. So for that I think we have the visibility.
    I believe that the U.S. Pacific Command supports the 
funding for JPAC. The only reason we had a reduction this year 
was a congressionally mandated mark.
    And so I am comfortable that we have this ability of what 
we are doing at JPAC for our funds.
    Mrs. Davis. Okay. Thank you.
    My time is up, and I will move to Mr. Wilson.
    Mr. Wilson. Thank you, Madam Chairwoman.
    And thank both of you for your obviously dedicated service. 
It has been inspiring to me to hear both of you speak.
    Additionally, Ambassador Ray, I want to reiterate my 
appreciation for your military service, your extraordinary 
diplomatic service and wish you well on your return to the 
State Department.
    And this is really a question for each of you. In the 
different Veterans Service Organizations (VSOs) that we heard 
from, their commitment was also inspiring, and that is what 
creates this question. We have heard some testimony that 
contracting for professional historians, archivists, 
genealogists, and researchers could assist both DPMO and JPAC 
in carrying out current missions.
    Given that JPAC is only 84 percent manned at this date, to 
what extent has the use of contractors been evaluated to 
increase JPAC's ability to meet mission requirements and help 
reduce the backlog of remains that must be identified?
    Admiral Crisp. The contracts that we use, I have contracted 
forensic anthropologists. I have coming onboard this summer a 
contracted odontologists.
    For the area of historian, I am taking the command from 
four historians to eight this year. And so I am using the 
military-to-civilian (mil-civ) conversion when we are talking 
about the numbers in that to shape the numbers of historians 
that we need to get the job done.
    Ambassador Ray. In regards to DPMO, part of the decision on 
how we allocate analysts and researchers will depend on the 
final decisions on the conflict strategy, which is, as you 
heard in the earlier testimony, has been put in draft and is 
available for review.
    We have made some changes, in fact, in the allocation of 
researchers to various conflicts to ensure a little more 
equitable coverage. I wouldn't go so far as to say that we have 
achieved all the goals that we set for ourselves.
    We were fortunate last year in working within the defense 
system to get some authorized increases in personnel. Of 
course, my first priority because I do also have to manage the 
flow of information to families was to increase the staffing 
available to man that function. And that is the 
declassification process to ensure that we comply with the 
intent of the regulation, that those documents relating to POW/
MIA cases that are classified are declassified and placed in a 
place that they are accessible not only to the families but to 
the public. We are working now to increase our staff in that 
area as well.
    Mr. Wilson. And both you have identified advances in 
technology--the clavicle identification.
    I am somewhat surprised not to hear about DNA capabilities 
of technological----
    Admiral Crisp. Well, I could tell you about what Armed 
Forces DNA Identification Laboratory (AFDIL) is doing. It was 
their demineralization process.
    So it was when the Korean War men came back and were buried 
in the Punchbowl and exhumed, they found that they had--the 
mortuary in Japan--had soaked the remains in formaldehyde and 
put a formaldehyde past over it. So that challenge of not 
having DNA has put AFDIL on the cutting edge of trying to find 
ways of finding DNA in different ways.
    That said, the demineralization process which they did just 
several years ago impacted the entire forensic capability of 
the United States, the difference being instead of having to 
have a piece of bone half the size of the palm of your hand, 
now you only have to have a piece the size of your fingernail.
    And that made a tremendous difference for the remains from 
Vietnam, because the soil deteriorates them so much. In many 
cases, at that point in time, the pieces of bone we couldn't 
get DNA out of, now we can. So you will see that making a 
difference there.
    I know that AFDIL is working on not only advances for their 
mitochondrial DNA but also their paternal DNA and, again, 
advancing their demineralization process.
    If you would like me to talk about the advancements in JPAC 
on the clavicle bones, I would be happy to talk about that. It 
is pretty fantastic.
    Mr. Wilson. I think I would be interested.
    Admiral Crisp. Basically, if you look at how forensic 
anthropologists have in the past looked at it, they take a 
clavicle bone and they try to match a few places, trying to 
guess who that person could be.
    I brought a young scientist, a Ph.D. in forensic 
anthropology, who had the idea of doing clavicle bones with the 
lower neck and doing eight different bones with 30 different 
points of identification. And he has worked industriously on 
this for a year. And we are up to the point where he has 
identified 9 of 10 correctly. So he is excited. I am excited.
    And so we started out on this journey. The first thing you 
had to have were the x-rays of the men who died and now are 
unknowns. So we have been working to get the x-rays. We got 
them from the Army and the Air Force. We just recently found 
the Navy and Marine Corps.
    And basically you have to go through entire spools of every 
x-ray that was done at a hospital to find that one person you 
want. So this is--we are working on it. But we are getting all 
the x-rays in.
    I had one photographer working on it. I now have a team of 
four photographers capturing these x-rays digitally. After that 
is done--and they are doing that on two shifts right now. After 
that is done, instead of having a Ph.D. outline the bones on 
the x-ray, I am going to look to see if maybe a draftsman or a 
Master's level person to work on that so we can accelerate 
that.
    So it started out with a process that would take four 
years. We have now shrunk it to two years. And I am trying very 
hard to try to compress it to one year by watching how they do 
their work, keep adding extra things they think that will make 
them go faster.
    Because I think when we are done we will have--assuming 
that it is accepted by the forensic science community--we will 
have a fabulous identification process. The entire--you know, 
there are scientists all over the world that are aware of what 
we are doing, because they come and drop by. They want to just 
sit and watch what we are doing because it is so cutting edge. 
So I am very excited about it.
    Mr. Wilson. Thank you.
    Mrs. Davis. Thank you.
    Dr. Snyder.
    Dr. Snyder. There was a reference just made to your school. 
Will you talk about that, please?
    Admiral Crisp. Forensic Science Academy started out as I 
began to look, and our whole team began to look, at recruiting 
and retention for JPAC. There was a variety of reasons, and I 
can discuss them later, why the manning was going down.
    But one of the things that I noticed is that we had talent 
in the command, but they needed to go to that extra level in 
order to be a Ph.D. level candidate. They needed extra 
training.
    In addition to that, many of the Ph.D.s that work for us 
would love to be associate professors at universities. By 
putting together an academy that not only self-trained the 
people you needed to pull them up by their bootstraps, you were 
also giving your own Ph.D.s the opportunity to earn associate 
professor credit.
    We have taken that further by working with the University 
of Hawaii, who has a Ph.D. program in anthropology. And we 
continue to link with other medical universities worldwide to 
build this into a fantastic training and recruiting and 
retention tool.
    Dr. Snyder. Why don't you talk about the manning and if 
they are related.
    Admiral Crisp. The manning, when I first started looking at 
it, was only at forensic anthropologists that were deployable. 
So much of the information that you asked from me was just 
focused on those deployable anthropologists.
    But as we got involved going back and forth between your 
committee and myself, we got into the whole lab. So let me just 
go through the entire laboratory.
    The laboratory is authorized 46 people. And they have 36 
assigned. Those are federal employees. There are 15 fellows. A 
fellow can either be a Ph.D. or a Master's level person.
    So when you get done, you had 51 work years against 46 
authorization. That is 110 percent manning.
    Keep in mind from my perspective to have a robust command 
of any function, you should have federal employees. You should 
never rely on mission critical execution in augmented manpower. 
Okay. So the whole focus that I am doing this year and into the 
following year is to bring aboard federal employees.
    That said, if you looked at just the anthropologists, we 
have 26 anthropologists that are authorized. We have 18 that 
are assigned. Ten of those fellows are anthropologists. So that 
means I have 28 anthropologists for an authorization of 26. 
Okay?
    If you go into just deployable, which is what so many 
people look at, I have 22 deployable anthropologists, 14 
assigned, 4 fellows, for 18. That is the critical area I am 
looking at because it is 64 percent for federal and 81 percent 
with the fellows.
    That said, if you compare that to Army manpower study that 
was done that required 27 anthropologists, our 26 is very 
close. In addition to that, we mitigate that by archaeologists, 
because many times when you go out on burials what you are 
really looking for is a change in the soil composition. And so 
the archaeologists take up that load.
    So if you look at the entire manpower study that was done 
by the Army, with the requirement of 37 and JPAC having 46, I 
think we are in good stead. But not satisfied with that, I 
asked the Pacific Command to hire someone. And they are 
bringing in an Air Force team of manpower and industrial 
engineers, and they start this month. And they will go all the 
way to September.
    And we are going to do a complete requirements documents 
for the command. And that will include--you know, first it 
gives you the quality and quantity that you need to do the job 
you are currently assigned to do. And it will also allow us to 
say: If we were to increase identifications, or if we were to 
increase recoveries, what would that manpower skill set be?
    And so that is what will be ready and available come the 
end of this year.
    Dr. Snyder. Thank you.
    Mrs. Davis. Thank you.
    Ms. Shea-Porter.
    Ms. Shea-Porter. Thank you.
    Thank you both for being here and for the work that you--
very difficult, sensitive work. And many people are depending 
on you, so thank you.
    Mr. Ray, I had a question about what kind of relationship 
your organization has with the family members, listening to 
those who lost loved ones in Vietnam versus those who lost 
loved ones in World War II or Korea or other wars. And could 
you talk a little bit about some of the problems that you are 
encountering and some of the solutions you think might be 
there?
    Ambassador Ray. Well, I would say that our relations with 
the family members as an organization, and we meet with them 
eight times a year in cities around the country at family 
updates and twice a year in Washington--one for the Vietnam War 
and one for the Korea/Cold War. Although this year because of 
economics, we will be doing our Washington meeting in St. 
Louis.
    But what I see, and I go to almost all of these or as many 
as I can, and I try to talk with every family member that 
attends. I don't really see an appreciable difference in how we 
interact with a family based on the conflict.
    Each case is an individual case. Each family is handled 
individually. And what I have observed is that the interaction 
is based more on the circumstances of the individual lost than 
on the conflict that it occurred in.
    We have in the time since we have been organized in our 
family updates reached out to over 14,000 people. We just 
recently, last weekend in fact, did one here in Bethesda, 
Maryland. We had 122 family members attending. Over 70 of 
those, by the way, were first-time attendees. And over, I want 
to say, 60 percent of the attendees were Korea/Cold War.
    But as you walked around the room and talked to people, 
unless they told you what war their relative was missing in, 
you couldn't tell.
    Ms. Shea-Porter. Shared sacrifice.
    And you said that you are going to provide transparency in 
community efforts as part of your strategy.
    Ambassador Ray. Yes, ma'am.
    Ms. Shea-Porter. And what will be different?
    Ambassador Ray. Well, when I took this job in September 
2006, the strategy was most current conflict.
    And on the surface that sounds like it maybe makes sense. 
But then when you start to think about it, there are 
similarities in conflicts. When you talk, for example, about 
the danger in loss of sites and the danger that you are losing 
witnesses. Losing witnesses is far more a critical problem in 
World War II than it would be in a more current conflict.
    I also asked myself, what do we do when the current 
conflict becomes the most recent historic conflict when this 
war is over? How do we reapportion resources if we are going to 
talk about most recent conflict?
    And even though we only have a very small number of cases 
that might still be unaccounted for at the end of this 
conflict, the circumstances will make it very labor intensive. 
We will be dealing with hostile populations. We will be dealing 
with a much more complex issue than we do in many of the other 
theaters that we have to work in. I doubt very seriously if--we 
have very good relations with former foes for some of the other 
conflicts. I don't see that being the case in a conflict in the 
Middle East.
    So that caused me to start questioning whether most current 
conflict was actually a viable strategy or perhaps we should be 
looking at it more in terms of look at all the conflicts and 
then look at those cases that are in most danger of us losing 
if we don't do something, and then evaluate them across all 
conflicts.
    Ms. Shea-Porter. Keeping resources available.
    And if I have one more second, Admiral Crisp, I know that 
the personnel who work with you have extreme challenges in the 
actual physical setting where they go. I remember hearing about 
this last year.
    How is the morale, and how are things going in terms of the 
physical risk that they undertake in order to go to these sites 
to recover our beloved servicemen and women who have died?
    Admiral Crisp. Well, I think the morale is great.
    I just had a report from the Indian officials that came 
back from the mission in Arunachal Pradesh, and they talked 
about our men basically climbing on their hands and knees as 
they went over very steep areas to make it to the jungle. So 
the sites in India are extreme elevations.
    So they are working hard. They are in arduous situations. I 
do prepare them. For instance, if they are going into high 
altitude, mountaineering kinds of recoveries, I make sure that 
they maintain a higher level of physical fitness in order to 
accomplish those missions and not be harmed.
    Ms. Shea-Porter. I thank them. I thank both of you and the 
families of service people.
    Ambassador Ray. Ma'am, if I might add one thing, please.
    And I think Admiral Crisp is being overly modest when she 
describes what her people do.
    Like her, I go out and visit these people in the field when 
they are on excavation sites and actually have been doing it 
even before this job when I was consul general in Ho Chi Minh 
City and ambassador in Cambodia. And I am impressed with the 
morale and dedication of the people in the field.
    But I would go so far as to say that in her modesty she did 
not mention that even in Hawaii they face risks. She was 
talking about the x-ray project, for example. These are old x-
rays that emit toxic fumes when used, and she has people who 
are risking their health in order to settle these cases.
    And I think that is a fact that should be noted. And they 
are to be applauded for the risks they take to pursue this 
mission.
    Ms. Shea-Porter. And we certainly thank them.
    Thank you. I yield back.
    Mrs. Davis. Thank you.
    And I certainly hope we are doing everything we can to 
mitigate those health risks as well. And please let us know if 
there is something else that we should be doing.
    Ms. Kilroy.
    Ms. Kilroy. Thank you very much, Madam Chair. And thank you 
for allowing me to participate.
    I have learned a great deal from both of the panels that 
have presented here this afternoon.
    And thank you, ambassador and admiral, for participating.
    Admiral, you referred to the rigors of the recoveries in 
Arunachal Province, and I appreciate you bringing that up. As 
you know, I had sent you a letter regarding the recovery of the 
remains of Second Lieutenant John Funk, a resident of Madison 
County, who as a navigator aboard a C-87 aircraft disappeared. 
And they have been located by a Mr. Clayton Kuhles, a private 
citizen, outside a village in that province.
    And as we know, you know, time is a very valuable and 
limited commodity for each and every one of us. But for the 
families of these men, the days are getting shorter.
    Lieutenant Funk's radio operator was also one of the five 
whose remains were uncovered. His wife is still alive. She is 
93 years old. And I think it is imperative that we make the 
recovery of the remains of our World War II fallen aviators and 
others a priority.
    Admiral Crisp. I agree with you. I mean, I have a widow 
that is in a mission just on the hill right from where I was at 
in her nineties that emails me very concerned to have her 
husband back with her before she goes on.
    So we are working very hard. In the case of people that go 
and find sites, and in the case of Mr. Kuhles, we have asked 
for the information and documentation. So very, very important 
to us when people go out--and there are many groups that go out 
and find things--that they return to us very detailed reports 
of what they have seen.
    Normally, we would prefer to wait till we had the 
documented information before we would ever go to a family 
member to say we were looking at going to somewhere for their 
loved one. So in the case of Mr. Kuhles, we have asked for all 
the documentation. And we hope to get it all.
    Ms. Kilroy. Thank you.
    Admiral Crisp. And the government of India is very forward 
leaning in helping us.
    Ms. Kilroy. That is good to hear.
    Admiral Crisp. And so I look forward to a long partnership.
    Ms. Kilroy. In terms of the overall issue and reassessment 
of how resources should be deployed, in 2006 the Department of 
Defense stated that, quote, ``Our long-term strategy for 
addressing World War II accounting is very much a work in 
progress'' and noted that Congress mandated that the Department 
make a reasonable effort to recover remains of U.S. servicemen 
lost in Pacific theater air operations, particularly in New 
Guinea, that it contemplated a limited effort.
    Besides some of the physical challenges like you described 
with the altitude and other issues, what is holding back, or 
what can we do to help you to complete this particular mission? 
And I don't mean----
    Admiral Crisp. We are talking to----
    Ms. Kilroy [continuing]. Necessarily Lieutenant Funk, I 
mean the mission of recovery of the World War II missing.
    Admiral Crisp. I believe we are focused on getting out to 
these sites and making positive relationships with all the 
countries. And that is the most important thing.
    If you desire to increase the number of missions, then that 
would be something that I would work into the calculus of what 
manpower would be required to do that.
    But right now if I were to look at level of effort in World 
War II, I spend 21 percent of my recovery and investigation 
missions in World War II, 12.8 percent in Korea, and 65.8 in 
the Vietnam War. So that is how I have parceled out doing the 
recovery and investigation teams.
    Ms. Kilroy. Would outsourcing--I think variations of this 
question have been asked earlier, and I heard you talk about 
how important the mission-critical items were. But certainly 
there are some private labs and others that could be used to 
augment some of the Department's efforts?
    Admiral Crisp. If I were to speak on behalf of my 
scientists, they would tell you that when you go out and have 
someone else disturb a site, many times you can destroy that 
very important piece of information that would have made the 
difference in being able to identify that hero or not.
    So on their behalf, they would say that they need to have 
very structured, stringent rules and regulations, and the 
identifications need to be done in a scientific laboratory. And 
they would most likely say contracting out would lead to error 
rates that our families would find unacceptable. If that is 
what you are asking.
    Ms. Kilroy. Thank you.
    My time is expired. Thank you very much for your answers.
    Mrs. Davis. Thank you very much.
    And I just want to let you know, Ms. Kilroy, we really 
appreciate your being here today and sharing your interest in 
this issue. Thank you.
    Before I ask a question, I am going to go to Mr. Wilson. 
And then we will come back. And then we are going to stop the 
hearing in just a few minutes.
    Mr. Wilson. And Admiral, I am particularly happy to hear of 
the cooperation with the government of India, which is now a 
very strong strategic ally of the United States. And in 
particular, my father flew the ``Hump,'' and so he served with 
the 14th Air Force Flying Tigers in India and China. So as you 
were reviewing that, it had special interest for me.
    My final question for each of you: Would a congressional 
mandate, a new law, that DOD must ensure the fullest possible 
accounting of the missing and prisoners of war from Korea and 
World War II be helpful in addressing some of your concerns?
    Ambassador Ray. Congressman Wilson, Madam Chairwoman, any 
congressional authorization that we get--a congressional 
mandate is most helpful to us, particularly as we try to gather 
the resources needed to do any extra missions.
    So if there is a clear congressional mandate, it is always 
helpful.
    Admiral Crisp. And I will yield to Ambassador Ray on that. 
It is clearly a policy area.
    Mr. Wilson. Thank you very much.
    Mrs. Davis. Thank you.
    I would note that in the 2004 Defense Authorization Act, 
really, they reiterated the sense of Congress that the U.S. 
should continue to be relentless in those POW/MIA efforts.
    And I am wondering, Ambassador Ray, when it comes to trying 
to delineate perhaps a new direction or strategy that you spoke 
to earlier, do you see that in need of legislative action at 
all?
    Ambassador Ray. At this point, ma'am, I am trying to get as 
much input as I can from those in the community. And the 
community, I might point out, is--although we are the two large 
gorillas in the zoo, it is a fairly large menagerie of people 
who have an equity in it, who have a role to play in it, and 
whose input I would like to assess before we try and shape the 
strategy.
    At this point, I don't that the remedies needed are 
legislative and not administrative changes in how we do this.
    Mrs. Davis. Do you have the flexibility that you need----
    Ambassador Ray. So far----
    Mrs. Davis [continuing]. To adjust that as you see fit?
    Ambassador Ray [continuing]. I have been given fairly free 
rein to try and herd the bureaucracy in the direction it needs 
to go.
    Mrs. Davis. Okay. Thank you. I certainly acknowledge and 
recognize that, you know, many people who care so deeply in 
this issue are coming at it from different perspectives. And it 
is very difficult sometimes to blend all of those together in a 
way that works for everybody.
    Looking at the need to find family reference samples and 
how difficult that is, I wonder if you could just turn to the 
issue of where at this time, as I understand it, we allow the 
service casualty offices to assist in seeking those family 
reference samples for identification.
    Do you see that JPAC could play a larger role in this? I 
guess this is really to you, admiral.
    Admiral Crisp. Well, what we are doing----
    Mrs. Davis. What do you see as some of the issues 
surrounding that question?
    Admiral Crisp. The family reference sample issue was 
primarily an ability to surge in genealogical research. So I 
know that the joint staff and others--we have basically a 
process improvement working group, which would be joint staff, 
OSD, AFDIL, JPAC.
    There is a need for a surge in genealogical work. So if you 
were to look at right now 64 percent of the--we have on hand 64 
percent of the family reference samples, and we need the rest. 
It is around 3,000. And most of them are in the Korean War 
area.
    And so we do need that to be surged. In addition to that, 
we are looking at scrubbing the data. Each group has a 
different language that they use to account for their numbers. 
So very important in any common operating picture is to 
standardize the language. That needs to be done this year.
    Ambassador Ray and I are proposing putting together a 
working group of just the people who do the numbers. We will 
sit them down in one room and scrub that information.
    And then after we get that common operating picture in 
paper, then our recommendation would be to automate that with 
some kind of middle ware that goes into the legacy software so 
that everyone can see what the other person is seeing with 
family reference samples.
    Mrs. Davis. Is there an area in which JPAC should have a 
larger role in this?
    Admiral Crisp. We work on it in a process improvement 
group. So I don't see it as a larger role.
    I think the stumbling block was infusing the services with 
more money for their genealogical work.
    Ambassador Ray. And I might add, Madam Chairwoman, the 
joint staff recently conducted a study regarding this issue and 
is looking for ways that they can be helpful.
    It is really less of a matter of asking can this or that 
organization do more, but how can we all do the job so that the 
whole job gets done better?
    And as Admiral Crisp alluded to, one of the biggest 
problems with this issue and with many other defense issues is 
every service has its own language. Every organization we deal 
with has its own language. I spent the first year on the job 
having people interpret for me at staff meetings because I 
didn't understand most of what was being said coming from 
State.
    So we have spent a lot of time just trying to make sure 
that in fact the problem is a problem and not a matter of we 
are simply saying the same thing in different ways and leading 
us to the conclusion that there is.
    Mrs. Davis. Thank you. I certainly appreciate that.
    It was mentioned that we were here about nine months ago. 
And I am pleased that I had a chance to visit with you, 
Admiral, as well in Hawaii at JPAC. And what I am wondering is, 
you know, where should we be next year? What would you like to 
see have changed in the interim? And what questions would you 
hope we might ask next year?
    Admiral Crisp. Well, definitely I would like to have my 
addition finished this summer so I could have already tripled 
the amount of table space and seeing what positive results come 
from being able to lay out for the first time those unknowns 
from the Korean War that came in in the 1990s.
    So that has been a long time coming to have that 
opportunity. And I would look forward to some kind of results 
from that effort.
    Ambassador Ray. I think the ideal situation, in my view, 
would be that we determine an increased pace of output, be that 
identifications or recoveries, find ways to achieve it, and 
discover next year that we need to do more.
    Mrs. Davis. Right.
    Thank you very much. We certainly appreciate your being 
here.
    Again, thank you to our first panel as well. We know that 
you have traveled to be here.
    And I think that everybody who sits on this panel has a 
very clear sense of your commitment. And it is quite inspiring.
    Thank you very much.
    Ambassador Ray. Thank you, ma'am.
    Admiral Crisp. Thank you.
    [Whereupon, at 4:56 p.m., the subcommittee was adjourned.]


      
=======================================================================




                            A P P E N D I X

                             April 2, 2009

=======================================================================

      


      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 2, 2009

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T1069.001
    
    [GRAPHIC] [TIFF OMITTED] T1069.002
    
    [GRAPHIC] [TIFF OMITTED] T1069.003
    
    [GRAPHIC] [TIFF OMITTED] T1069.004
    
    [GRAPHIC] [TIFF OMITTED] T1069.005
    
    [GRAPHIC] [TIFF OMITTED] T1069.006
    
    [GRAPHIC] [TIFF OMITTED] T1069.007
    
    [GRAPHIC] [TIFF OMITTED] T1069.008
    
    [GRAPHIC] [TIFF OMITTED] T1069.009
    
    [GRAPHIC] [TIFF OMITTED] T1069.010
    
    [GRAPHIC] [TIFF OMITTED] T1069.011
    
    [GRAPHIC] [TIFF OMITTED] T1069.012
    
    [GRAPHIC] [TIFF OMITTED] T1069.013
    
    [GRAPHIC] [TIFF OMITTED] T1069.014
    
    [GRAPHIC] [TIFF OMITTED] T1069.015
    
    [GRAPHIC] [TIFF OMITTED] T1069.016
    
    [GRAPHIC] [TIFF OMITTED] T1069.017
    
    [GRAPHIC] [TIFF OMITTED] T1069.018
    
    [GRAPHIC] [TIFF OMITTED] T1069.019
    
    [GRAPHIC] [TIFF OMITTED] T1069.020
    
    [GRAPHIC] [TIFF OMITTED] T1069.021
    
    [GRAPHIC] [TIFF OMITTED] T1069.022
    
    [GRAPHIC] [TIFF OMITTED] T1069.023
    
    [GRAPHIC] [TIFF OMITTED] T1069.024
    
    [GRAPHIC] [TIFF OMITTED] T1069.025
    
    [GRAPHIC] [TIFF OMITTED] T1069.026
    
    [GRAPHIC] [TIFF OMITTED] T1069.027
    
    [GRAPHIC] [TIFF OMITTED] T1069.028
    
    [GRAPHIC] [TIFF OMITTED] T1069.029
    
    [GRAPHIC] [TIFF OMITTED] T1069.030
    
    [GRAPHIC] [TIFF OMITTED] T1069.031
    
    [GRAPHIC] [TIFF OMITTED] T1069.032
    
    [GRAPHIC] [TIFF OMITTED] T1069.033
    
    [GRAPHIC] [TIFF OMITTED] T1069.034
    
    [GRAPHIC] [TIFF OMITTED] T1069.035
    
    [GRAPHIC] [TIFF OMITTED] T1069.036
    
    [GRAPHIC] [TIFF OMITTED] T1069.037
    
    [GRAPHIC] [TIFF OMITTED] T1069.038
    
    [GRAPHIC] [TIFF OMITTED] T1069.039
    
    [GRAPHIC] [TIFF OMITTED] T1069.040
    
    [GRAPHIC] [TIFF OMITTED] T1069.041
    
    [GRAPHIC] [TIFF OMITTED] T1069.042
    
    [GRAPHIC] [TIFF OMITTED] T1069.043
    
    [GRAPHIC] [TIFF OMITTED] T1069.044
    
    [GRAPHIC] [TIFF OMITTED] T1069.045
    
    [GRAPHIC] [TIFF OMITTED] T1069.046
    
    [GRAPHIC] [TIFF OMITTED] T1069.047
    
    [GRAPHIC] [TIFF OMITTED] T1069.048
    
    [GRAPHIC] [TIFF OMITTED] T1069.049
    
    [GRAPHIC] [TIFF OMITTED] T1069.050
    
    [GRAPHIC] [TIFF OMITTED] T1069.051
    
    [GRAPHIC] [TIFF OMITTED] T1069.052
    
    [GRAPHIC] [TIFF OMITTED] T1069.053
    
    [GRAPHIC] [TIFF OMITTED] T1069.054
    
    [GRAPHIC] [TIFF OMITTED] T1069.055
    
    [GRAPHIC] [TIFF OMITTED] T1069.056
    
    [GRAPHIC] [TIFF OMITTED] T1069.057
    
    [GRAPHIC] [TIFF OMITTED] T1069.058
    
    [GRAPHIC] [TIFF OMITTED] T1069.059
    
    [GRAPHIC] [TIFF OMITTED] T1069.060
    
    [GRAPHIC] [TIFF OMITTED] T1069.061
    
    [GRAPHIC] [TIFF OMITTED] T1069.062
    
    [GRAPHIC] [TIFF OMITTED] T1069.063
    
    [GRAPHIC] [TIFF OMITTED] T1069.064
    
    [GRAPHIC] [TIFF OMITTED] T1069.065
    
    [GRAPHIC] [TIFF OMITTED] T1069.066
    
    [GRAPHIC] [TIFF OMITTED] T1069.067
    
    [GRAPHIC] [TIFF OMITTED] T1069.068
    
    [GRAPHIC] [TIFF OMITTED] T1069.069
    
    [GRAPHIC] [TIFF OMITTED] T1069.070
    
    [GRAPHIC] [TIFF OMITTED] T1069.071
    
    [GRAPHIC] [TIFF OMITTED] T1069.072
    
    [GRAPHIC] [TIFF OMITTED] T1069.073
    
    [GRAPHIC] [TIFF OMITTED] T1069.074
    
    [GRAPHIC] [TIFF OMITTED] T1069.075
    
    [GRAPHIC] [TIFF OMITTED] T1069.076
    
    [GRAPHIC] [TIFF OMITTED] T1069.077
    
    [GRAPHIC] [TIFF OMITTED] T1069.078
    
    [GRAPHIC] [TIFF OMITTED] T1069.079
    
    [GRAPHIC] [TIFF OMITTED] T1069.080
    
    [GRAPHIC] [TIFF OMITTED] T1069.081
    
    [GRAPHIC] [TIFF OMITTED] T1069.082
    
    [GRAPHIC] [TIFF OMITTED] T1069.083
    
    [GRAPHIC] [TIFF OMITTED] T1069.084
    
    [GRAPHIC] [TIFF OMITTED] T1069.085
    
    [GRAPHIC] [TIFF OMITTED] T1069.086
    
    [GRAPHIC] [TIFF OMITTED] T1069.087
    
    [GRAPHIC] [TIFF OMITTED] T1069.088
    
    [GRAPHIC] [TIFF OMITTED] T1069.089
    
    [GRAPHIC] [TIFF OMITTED] T1069.090
    
    [GRAPHIC] [TIFF OMITTED] T1069.091
    
    [GRAPHIC] [TIFF OMITTED] T1069.092
    
    [GRAPHIC] [TIFF OMITTED] T1069.093
    
    [GRAPHIC] [TIFF OMITTED] T1069.094
    
    [GRAPHIC] [TIFF OMITTED] T1069.095
    
    [GRAPHIC] [TIFF OMITTED] T1069.096
    
    [GRAPHIC] [TIFF OMITTED] T1069.097
    
    [GRAPHIC] [TIFF OMITTED] T1069.098
    
    [GRAPHIC] [TIFF OMITTED] T1069.099
    
    [GRAPHIC] [TIFF OMITTED] T1069.100
    
    [GRAPHIC] [TIFF OMITTED] T1069.101
    
    [GRAPHIC] [TIFF OMITTED] T1069.102
    
    [GRAPHIC] [TIFF OMITTED] T1069.103
    
    [GRAPHIC] [TIFF OMITTED] T1069.104
    
    [GRAPHIC] [TIFF OMITTED] T1069.105
    
    [GRAPHIC] [TIFF OMITTED] T1069.106
    
    [GRAPHIC] [TIFF OMITTED] T1069.107
    
    [GRAPHIC] [TIFF OMITTED] T1069.108
    
    [GRAPHIC] [TIFF OMITTED] T1069.109
    
    [GRAPHIC] [TIFF OMITTED] T1069.110
    
    [GRAPHIC] [TIFF OMITTED] T1069.111
    
    [GRAPHIC] [TIFF OMITTED] T1069.112
    
    [GRAPHIC] [TIFF OMITTED] T1069.113
    
    [GRAPHIC] [TIFF OMITTED] T1069.114
    
    [GRAPHIC] [TIFF OMITTED] T1069.115
    
    [GRAPHIC] [TIFF OMITTED] T1069.116
    
    [GRAPHIC] [TIFF OMITTED] T1069.117
    
    [GRAPHIC] [TIFF OMITTED] T1069.118
    
    [GRAPHIC] [TIFF OMITTED] T1069.119
    
    [GRAPHIC] [TIFF OMITTED] T1069.120
    
    [GRAPHIC] [TIFF OMITTED] T1069.121
    
    [GRAPHIC] [TIFF OMITTED] T1069.122
    
    [GRAPHIC] [TIFF OMITTED] T1069.123
    
    [GRAPHIC] [TIFF OMITTED] T1069.124
    
    [GRAPHIC] [TIFF OMITTED] T1069.125
    
    [GRAPHIC] [TIFF OMITTED] T1069.126
    
    [GRAPHIC] [TIFF OMITTED] T1069.127
    
    [GRAPHIC] [TIFF OMITTED] T1069.128
    
    [GRAPHIC] [TIFF OMITTED] T1069.129
    
    [GRAPHIC] [TIFF OMITTED] T1069.130
    
    [GRAPHIC] [TIFF OMITTED] T1069.131
    
    [GRAPHIC] [TIFF OMITTED] T1069.132
    
    [GRAPHIC] [TIFF OMITTED] T1069.133
    
    [GRAPHIC] [TIFF OMITTED] T1069.134
    
    [GRAPHIC] [TIFF OMITTED] T1069.135
    
    [GRAPHIC] [TIFF OMITTED] T1069.136
    
    [GRAPHIC] [TIFF OMITTED] T1069.137
    
    [GRAPHIC] [TIFF OMITTED] T1069.138
    
    [GRAPHIC] [TIFF OMITTED] T1069.139
    
    [GRAPHIC] [TIFF OMITTED] T1069.140
    
    [GRAPHIC] [TIFF OMITTED] T1069.141
    
    [GRAPHIC] [TIFF OMITTED] T1069.142
    
    [GRAPHIC] [TIFF OMITTED] T1069.143
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             April 2, 2009

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T1069.144
    
    [GRAPHIC] [TIFF OMITTED] T1069.145
    
    [GRAPHIC] [TIFF OMITTED] T1069.146
    
    [GRAPHIC] [TIFF OMITTED] T1069.147
    
    [GRAPHIC] [TIFF OMITTED] T1069.148
    
    [GRAPHIC] [TIFF OMITTED] T1069.149
    
    [GRAPHIC] [TIFF OMITTED] T1069.150
    
    [GRAPHIC] [TIFF OMITTED] T1069.151
    
    [GRAPHIC] [TIFF OMITTED] T1069.152
    
    [GRAPHIC] [TIFF OMITTED] T1069.153
    
    [GRAPHIC] [TIFF OMITTED] T1069.154
    
    [GRAPHIC] [TIFF OMITTED] T1069.155
    
    [GRAPHIC] [TIFF OMITTED] T1069.156
    
    [GRAPHIC] [TIFF OMITTED] T1069.157
    
    [GRAPHIC] [TIFF OMITTED] T1069.158
    
    [GRAPHIC] [TIFF OMITTED] T1069.159
    
    [GRAPHIC] [TIFF OMITTED] T1069.160
    
    [GRAPHIC] [TIFF OMITTED] T1069.161
    
    [GRAPHIC] [TIFF OMITTED] T1069.162
    
    [GRAPHIC] [TIFF OMITTED] T1069.163
    
    [GRAPHIC] [TIFF OMITTED] T1069.164
    
    [GRAPHIC] [TIFF OMITTED] T1069.165
    
    [GRAPHIC] [TIFF OMITTED] T1069.166
    
    [GRAPHIC] [TIFF OMITTED] T1069.167
    
    [GRAPHIC] [TIFF OMITTED] T1069.168
    
    [GRAPHIC] [TIFF OMITTED] T1069.169
    
    [GRAPHIC] [TIFF OMITTED] T1069.170
    
    [GRAPHIC] [TIFF OMITTED] T1069.171
    
    [GRAPHIC] [TIFF OMITTED] T1069.172
    
    [GRAPHIC] [TIFF OMITTED] T1069.173
    
    [GRAPHIC] [TIFF OMITTED] T1069.174
    
    [GRAPHIC] [TIFF OMITTED] T1069.175
    
    [GRAPHIC] [TIFF OMITTED] T1069.176
    
    [GRAPHIC] [TIFF OMITTED] T1069.177
    
    [GRAPHIC] [TIFF OMITTED] T1069.178
    
    [GRAPHIC] [TIFF OMITTED] T1069.179
    
    [GRAPHIC] [TIFF OMITTED] T1069.180
    
    [GRAPHIC] [TIFF OMITTED] T1069.181
    
    [GRAPHIC] [TIFF OMITTED] T1069.182
    
    [GRAPHIC] [TIFF OMITTED] T1069.183
    
    [GRAPHIC] [TIFF OMITTED] T1069.184
    
    [GRAPHIC] [TIFF OMITTED] T1069.185
    
    [GRAPHIC] [TIFF OMITTED] T1069.186
    
    [GRAPHIC] [TIFF OMITTED] T1069.187
    
    [GRAPHIC] [TIFF OMITTED] T1069.188
    
    [GRAPHIC] [TIFF OMITTED] T1069.189
    
    [GRAPHIC] [TIFF OMITTED] T1069.190
    
    [GRAPHIC] [TIFF OMITTED] T1069.191
    
    [GRAPHIC] [TIFF OMITTED] T1069.192
    
    [GRAPHIC] [TIFF OMITTED] T1069.193
    
    [GRAPHIC] [TIFF OMITTED] T1069.194
    
    [GRAPHIC] [TIFF OMITTED] T1069.195
    
    [GRAPHIC] [TIFF OMITTED] T1069.196
    
    [GRAPHIC] [TIFF OMITTED] T1069.197
    
    [GRAPHIC] [TIFF OMITTED] T1069.198
    
    [GRAPHIC] [TIFF OMITTED] T1069.199
    
    [GRAPHIC] [TIFF OMITTED] T1069.200
    
    [GRAPHIC] [TIFF OMITTED] T1069.201
    
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 2, 2009

=======================================================================

      
                   QUESTIONS SUBMITTED BY MRS. DAVIS

    Mrs. Davis. Do you think creating a Defense Field Agency to 
consolidate all POW/MIA affairs will help create a more efficient unity 
of effort especially with respect to funding and providing resources?
    Ambassador Ray. While unity of effort is highly desired, and we 
have been working hard to obtain it in the accounting mission, creating 
a Defense Field Agency that consolidates all the organizations involved 
in POW/MIA affairs is problematic. Organizations such as the service 
casualty and mortuary affairs offices, the Armed Forces DNA 
Identification Laboratory, and the Air Force's Life Sciences Equipment 
Laboratory play an important role in the personnel accounting 
community, but they also have other missions as well. They would not be 
as effective if incorporated into a new Defense Field Agency, and it 
would not be efficient to duplicate the parts that support the 
personnel accounting community. Some efficiencies might be achieved by 
combining DPMO and JPAC into a single agency or under a single 
headquarters, but this needs careful study.
    Mrs. Davis. Collecting Family Reference Samples for comparison to 
remains is a slow process. Currently the service casualty offices are 
responsible to interface with the families and collect the samples for 
CIL. CIL will often send request for samples for remains they are 
examining and often wait over a year to receive the sample. Although 
the services state it is a priority, there are other challenges they 
face with the current conflict and managing the families of recent 
casualties. Should JPAC have a larger role in the collection of Family 
Reference Samples?
    Admiral Crisp. JPAC has taken a larger role in overall management 
of the Family Reference Sample (FRS) issue by hosting the first ``FRS 
Summit'' (8-10 June 2009). All organizations involved with this 
critical portion of the accounting effort were present. DPMO is also 
leading an FRS working group and Lean Six Sigma project and PACOM and 
the Joint Staff are committed to supporting a genealogical surge effort 
to begin in 2010. JPAC has a significant role in providing requirements 
for the collection but the actual family contact and collection remains 
with the SCO's. Although the Services are the primary interface with 
families, they are understandably focused on current death and support 
to current war families. Therefore, JPAC is recommending a temporary 3 
year, 17 to 21 person ``Task Force'' to meet a requirement to obtain 
90% of currently requested samples within 3 years. OSD is coordinating 
with Joint Staff to ascertain the best approach to managing this 
project. If determined appropriate, with additional resources, funding 
and personnel, JPAC is poised to manage this 3 year project.
    Mrs. Davis. JPAC is attempting to hire l6 anthropologists. The job 
announcement closed on 29 March 2009. How many applicants did you 
receive from this job announcement?
    Admiral Crisp. JPAC is not attempting to hire 16 Anthropologists. 
JPAC added 5 physical anthropologist positions to the laboratory 
effective 1 March 2009 which brought our total vacant physical 
anthropologists billets to 8. JPAC is attempting to hire forensic 
Anthropologists at 4 different levels, entry through Senior, Board 
certified. We maintain open job announcements for qualified candidates 
at all of these levels. Since March, 4 qualified applicants have been 
offered positions, 3 have accepted.
    Mrs. Davis. There is concern that you are misleading your personnel 
strength, especially with Anthropologist, by including interns in your 
strength numbers. You stated this brings your manning from 
approximately 86% to 115%. If the interns are not qualified 
anthropologist, how can you realistically include them as part of your 
operational strength?
    Admiral Crisp. The reference to 86% manning in my written and oral 
statement referred to the percentage of JPAC's military and civilian 
authorized strength and did not include interns or Oak Ridge Institute 
of Science and Education (ORISE) Fellows; the statement was not 
specific to the Laboratory. Interns were not included in our strength 
numbers. I reported two categories of manning for the laboratory, 
federal civil service and ORISE Fellows. When reviewing the total work 
effort, ORISE Fellows, the majority of who have master's and doctorate 
degrees in anthropology with significant case work experience, work 
full time within JPAC performing similar jobs as our federal civil 
service employees. Federal employment, military and civil service 
civilian personnel, in the laboratory was at 78% in April. To ensure 
clarity, JPAC will no longer report ORISE Fellows when discussing 
personnel manning.
    Mrs. Davis. What is the cost of this new Radiograph matching 
technology that is being developed and tested. How promising is this 
technology and how soon can it be in place to help the identification 
effort?
    Admiral Crisp. The total cost (to date) for the project is $450K. 
We anticipate an additional $230K will be required in FY2010/2011 to 
complete the project. These costs do not include the federal civilian 
service labor costs associated with the scientists working the project.
    The method promises to provide a means of matching remains to 
antemortem records that has greater probative value than mitochondrial 
DNA and comparable value to dental radiographic matching or nuclear DNA 
profile matching. It has the potential to play a key role in as many as 
200 identifications from the Korean War Punchbowl Unknowns and numerous 
other Korean War cases. While JPAC is accelerating the project, 
estimated completing date is 1.5 to 2.2 years.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. WILSON
    Mr. Wilson. Please explain what you believe the study you have 
contracted for will provide in terms of the organizational structure of 
the personnel accounting community, the manning and the resources 
required to double the identifications?
    Ambassador Ray. DPMO tasked the Institute for Defense Analyses 
(IDA) to identify viable alternatives for enhancing the efficiency and 
effectiveness of the JPAC Central Identification Laboratory's current 
operations. This should include how various structural, resource and 
manning changes in the laboratory, as well as the personnel accounting 
community, can impact the rate of identifications.
    Mr. Wilson. Would the study provide a basis for decisions related 
to increasing identifications three-, four-, or five-fold?
    Ambassador Ray. The study was aimed at increasing the number of 
identifications to 180 per year by 2014--a 100% increase over the five-
year average for years 2003-2007. Once we receive and evaluate the 
study results, we will determine whether it provides a basis for an 
increase beyond that level.
    Mr. Wilson. You will be gone from your position well before any 
implementation of the study's recommendations. To what extent have 
officials in the DOD staff and the Joint Staff committed to carrying 
out the recommendations of the study?
    Ambassador Ray. Once we have received and evaluated the study's 
conclusions, we will brief the senior OSD policy leadership and 
appropriate members of the Joint Staff on the findings and 
recommendations. At this point, it is not possible to say what the 
reaction to the study will be.
    Mr. Wilson. What factors contribute to the low manning percentage 
at JPAC?
    Admiral Crisp. Our current manning is 86% with 97% military and 70% 
civilian; we are authorized 407 billets, 246 military and 161 civilian. 
We currently have 239 military and 112 civilians onboard. The low 
percentage is due to two primary factors; 74 military to civilian 
conversions and the closing of the Navy Human Resource Service Center 
(HRSC)-Pacific, our servicing personnel center. The HRSC-Pacific was 
part of a base realignment and closure which directly impacted JPAC's 
ability to hire personnel. As of January 2009, HRSC-Northwest has 
managed JPAC's personnel actions and made our requirements a top 
priority.
    Mr. Wilson. When do you believe that JPAC will be fully manned at 
100 percent of your current authorizations? Does current manning 
guidance from PACOM or the Navy set a prescribed manning level for JPAC 
that is below 100 percent? If so, what is the directed manning level?
    Admiral Crisp. Our current manning is 86% with 97% military and 70% 
civilian; we are authorized 407 billets, 246 military and 161 civilian. 
We currently have 239 military and 112 civilians onboard. It is 
unlikely JPAC will achieve and sustain 100% manning due to the dynamics 
of military and civilian personnel systems. There is no prescribed 
manning guidance from US Pacific Command or Department of the Navy that 
drives our military or civilian manning below 100%.
    Mr. Wilson. To what degree is the Hawaii location of the Central 
Identification Lab contributing to your difficulties in recruiting and 
retaining qualified specialists like anthropologists?
    Admiral Crisp. Forensic scientists with the requisite skills are a 
high-demand, low density demographic. The demand for forensic 
scientists has grown in recent years throughout the world which has 
impacted the available candidate pool. This situation is not unique to 
JPAC or Hawaii, but is a common challenge facing any organization 
largely dependent on personnel drawn from highly specialized fields. 
The high cost of living associated with Hawaii and geographic 
separation from professional colleagues presents additional challenges. 
JPAC is attempting to overcome some of these challenges by aggressive 
recruiting efforts and offering special incentives such as assistance 
in student loan repayment, relocation/recruitment bonus, paying for 
relocation to Hawaii for new employees, and creating additional 
promotional opportunities to retain and recruit Anthropologists. JPAC 
is currently requesting the use of Target Local Market Supplement.
    Mr. Wilson. To what extent should your budget be protected from 
budget cuts in the year of execution?
    Admiral Crisp. Budget cuts in the year of execution result in the 
cancellation or reduction in scope of JPAC recovery missions and 
identifications. The unique mission of JPAC requires significant 
planning and coordination with host nations, with negotiations often 
occurring more than one year in advance. Last minute changes to 
negotiated arrangements, due to budget cuts in the execution year not 
only impact the mission but affect forging partnerships.
    Mr. Wilson. Could you elaborate on what ``checks and balances'' 
would be lost through a more centralized authority over the personnel 
accounting process?
    Ms. Griffiths. Since the end of the Vietnam War, I have witnessed 
several moves to centralize and decentralize over nine administrations 
under six presidents. With centralized control, political agendas, 
self-interest, self-promotion and self-preservation can become the 
paramount objectives, as can expansion of the core power base, leading 
to self-reinforcement, instead of clear focus on an organization's 
mission. With one central authority over both developing and 
establishing policy and planning and controlling implementation of 
operations, priorities become misplaced and criteria to judge success 
becomes self-fulfilling. With total control, there is little 
competition for excellence and even less tolerance for outside inputs 
and opinions. Those in total control hold all the keys, have all the 
answers, control the funding and can readily manipulate the personnel, 
yet still go unchallenged.
    A sense of entitlement seems to come with centralized control. This 
can generate excessive focus on justifying the organization, rather 
than utilizing the system to address issues of importance to the 
mission of achieving defined objectives though, with total control, 
even the objectives are self-determined. Protection of centralized 
control induces fear of recrimination, and fear of recrimination 
dampens open dialogue, introduction of concepts and honest critiques of 
established processes.
    Before long, the mission is left with one set of self-important, 
but comparatively uninformed officials talking with each other, and 
another set of self-preservationists simply going along to get along 
and retain employment. The combination contributes only to what is 
expected and desired, rather than the best judgments, based on 
experience, of people who are led by the example of inspired leaders.
    The central authority finds greater comfort in hearing from those 
who are like-minded, or feign such, than in dealing with those whose 
opinions raise questions or require solutions. Such are the apparent 
reasons behind the current push for DPMO to be the central control of 
all matters pertaining to the POW/MIA accounting effort and the basis 
for insulating policy decision-making by cautioning US officials 
involved in the process to refrain from ``pre-decisional consultation'' 
outside their own organization or certainly outside official channels.
    Frustrations stem from the penchant of some to keep secrets, even 
withholding vital information from others on the misplaced theory that 
knowledge is power, rather than recognizing the utility of sharing 
relevant data with those who have a legitimate need to know and are 
working to solve problems and find solutions. Self-confident, inquiring 
officials from all the organizations with different funding streams, if 
unafraid to raise questions and offer comments, have the best set of 
circumstances for creating smart policy and providing guidance for 
successful implementation. This openness, however, is feared most by 
those afraid to expose to the outside world their own ineptness or lack 
of serious interest. At its best, an open-minded interagency approach 
is useful in drawing out recommendations and concepts for improvements 
that can then be balanced against the policy objectives and vested 
interests espoused throughout an interagency community. The advantages 
of interagency coordination and cooperation far outweigh the negatives, 
especially with highly qualified people of integrity in each diverse 
organization.
    Ironically, in no other official priority is such insulation either 
sought or allowed; in fact, it is quite the contrary, especially as 
thus far undertaken by the current administration. We look to this 
Subcommittee for closer oversight and preservation of an open decision-
making process, with input from all agencies involved as stakeholders 
under policy guidance from OSD and implementation at the lowest 
possible level by personnel closest to the problems and challenges on 
the ground.
    Mr. Wilson. If JPAC were resourced and funded to expand the number 
of detachments it could field, would you still object to deploying JPAC 
detachments to improve the personnel recovery process of the 80,000 
World War II POW/MIAs?
    Ms. Griffiths. For purposes of understanding the question, I will 
assume the word ``detachments'' equates to ``teams'' . . . . believing 
that may be what the question is truly asking. Several other points in 
the question, however, require clarification, including the differences 
in outcomes of the various wars that impact JPAC's expanded accounting 
mission, including the fact that there are not ``80,000 World War II 
POW/MIAs.''
    Without going into numerical detail, the term ``POW/MIA'' does not 
realistically depict the status of unaccounted for Americans from WWII. 
Roughly half of the 78,000 still unaccounted for from WWII are and will 
remain KIA/BNR; thousands of these personnel are officially considered 
buried at sea due to the sinking of many US Navy vessels during that 
worldwide tragedy. This estimate is based on DPMO's publicly available 
statistics and on-the-record statements by Ambassador Ray.
    As to differences in each war's outcome, WWII was won by the United 
States and her allies so, to a large extent, there was access to the 
battlefield, unlike the end-result of the Korean War and the Vietnam 
War. The Cold War is in its own realm, equating more to spy episodes 
than to combat, though no less heroic and, in many instances, much more 
critical to our nation.
    Approximately 90% of sites estimated as potentially recoverable and 
possibly over land masses are in the U.S. Pacific Command's area of 
operations. It is entirely feasible that with increased funding and 
personnel, JPAC could field more investigation and recovery teams, 
thereby addressing more cases across all conflicts each year. As I 
testified on April 2nd, with those increased teams would also come a 
requirement for support personnel in JPAC headquarters, as well as 
increased personnel requirements in the Service Casualty Offices to 
support family outreach and notifications.
    Specific to the question of adding JPAC Detachments, placing one in 
Papua New Guinea (PNG) could serve a regionally useful role to 
facilitate WWII-related investigations and recoveries in Palau, 
Vanuatu, the Solomon Islands and other such locations. However, in 
countries such as South Korea where US Armed Forces are stationed, 
these personnel can be tapped for support within existing structure and 
manpower, as is done routinely by JPAC today.
    Likewise, in Europe, there is no compelling need for a JPAC 
Detachment. There are plenty of US Armed Forces stationed in Germany, 
Belgium, England, Spain and other countries with mortuary and other 
skills for simple exhumations. The U.S. Army Mortuary-Europe supports 
JPAC operations and, with increased training, personnel and funding, to 
include adding a JPAC liaison and research historian, this existing 
mortuary could potentially assist in more European missions.
    Burial locations of U.S. and Allied forces in Europe, former states 
that comprised the Soviet Union and Russia will continue to be 
discovered for decades, as populations shift and grow, as fields once 
farmed become locations for shopping centers or other development. In 
Russia and former Eastern European countries, JPAC's work is augmented 
by the U.S. personnel of the Joint Commission Support Directorate 
(JCSD), manned by specialists who conduct interviews, investigations 
and surveys. When discoveries are made, there should obviously be an 
attempt to recover and identify the remains of any American veteran, 
though uncertainty is unlikely for their immediate families at this 
point in history. The families of unreturned WWII veterans long ago 
accepted the reality that their loved ones are deceased. In fact, many 
``unknowns'' are buried as ``Unknowns'' in American Cemeteries 
throughout Europe.
    The truce that halted combat in the Korean War left the U.S. 
without access to vast areas north of the 38th parallel, but with a 
large number of forces stationed in what became South Korea. This was 
particularly tragic in relation to known POW camps, controlled by the 
Communist Chinese People's Liberation Army. At least 389 Americans 
known to have entered these camps alive were not returned in the ``Big 
Switch'' and ``Little Switch'' operations called for at Panmunjom. Many 
U.S. and Allied POWs died in these camps and were buried in cemeteries 
located adjacent to the camps, as evidenced by photographs taken in the 
early 1980s, and U.S. archival records.
    Pursuing answers on Korean War losses was halted by the U.S. for 
reasons having nothing to do with the POW/MIA issue and linked to 
national security, nuclear proliferation and political considerations. 
Unless there is high level administration willingness to seek 
cooperation from the PRC for access to sources and archival documents 
related to the POW camps, and to talk bilaterally with DPRK officials 
on a separate, humanitarian basis to reach agreement on access and 
compensation terms, there will be no accounting in the near term for 
those missing and KIA/BNR in North Korea, even those initially listed 
as POWs. The U.S. can and does pursue surveys and remains recoveries of 
those killed and buried in unknown locations in South Korea. For that 
to occur, no JPAC Detachment is needed, due to the presence of U.S. 
Armed Forces, the longstanding role of the United Nations Command, and 
the priority that the South Korean Government has placed on accounting 
for their own people by forming MAKRI, their version of JPAC and its 
Central Identification Laboratory.
    There has recently been a ``strawman'' raised in the context of 
establishing JPAC field operation priorities that no POW/MIA Is more 
important than another in terms of scheduling, that all are equal. On 
its face, this statement appears valid, but it also ignores the 
differing outcomes from various wars and the different approaches 
required for achieving the fullest possible accounting from all wars. 
Gaining cooperation from, and access to, countries where U.S. losses 
occurred during the Vietnam War was a product of intense, high-level 
negotiations, once internal U.S. priority was established. The same 
will be true for North Korea. Recovering KIA/BNR personnel from WWII 
sites does not require such efforts since many of the governments 
involved are former allies and/or non-hostile.
    The answer lies in expanding resources and personnel to meet 
increased requirements, not shifting them from operations in Vietnam, 
Laos and Cambodia. In conformity with all being equal in priority, it 
should not be a zero-sum-game, and families with loved ones missing 
from one war should not be pitted against one another. The League 
supports increased resources and personnel, smartly deployed, to 
account as fully as possible for those missing from all of America's 
wars and conflicts.
    As for the priority placed on the Vietnam War veterans still 
missing and unaccounted for in Southeast Asia, the country of Vietnam 
was and remains the controlling factor in 90% of all loss locations. 
Due to comparatively advanced wartime communication capabilities, much 
is known about the degree to which the Vietnamese government can, on 
its own, account for missing U.S. personnel. This is especially true on 
discrepancy cases of U.S. personnel last known alive in captivity or 
alive on the ground and in immediate proximity to capture. Unilateral 
provision of archival records would also facilitate joint field 
operations by identifying potential witnesses who could be located and 
interviewed for relevant case-specific data. In that interview process, 
the Defense Intelligence Agency's POW/MIA investigation specialists, 
known as the Stony Beach Team, augments JPAC's capability by applying 
their skills and experience to obtaining relevant information.
    At the time of my testimony, I had just returned from a trip to 
Vietnam, Laos and Cambodia where meetings were held with each country's 
senior officials. We were accompanied in all meetings by the U.S. 
Ambassador to each country, the JPAC Detachment Commanders and by 
Defense Attaches in Vietnam and Cambodia. While I reported previously 
on the very positive outcomes in Laos and Cambodia, the focus continues 
to be on Vietnam due to its unique ability to contribute to the 
accounting, if motivated. That is why their consensus proposal to 
expand the pace and scope of joint field operations is particularly 
important. Their rationale for proposing the expansion were expressions 
of earlier U.S. concerns, i.e. potential destruction of incident sites 
due to development, and death or failing recollections of witnesses.
    This timely expansion should be accomplished by increasing U.S. 
capability, not by reducing remains recoveries related to earlier wars 
and conflicts. Meeting Vietnam's proposal to expand accounting efforts 
will require a commitment by the Obama Administration to increase the 
budget and number of people involved despite the necessary continuing 
focus on counter-terrorism and the wars in Iraq and Afghanistan. The 
increases for JPAC, from their headquarters and laboratory complement 
to field operators, would also require plus-ups in support 
organizations, casualty offices, LSEL and AFDIL, but there should be 
little to no impact on DPMO as the DoD office responsible for providing 
policy guidance and oversight, not conducting operations, except for 
JCSD-Moscow, the only forward-deployed operational element of DPMO.
    Again, we must rely on the Committee to advocate and closely 
monitor the Administration's effort to honor commitments to America's 
POW/MIAs and their families. Our Armed Forces serving today depend on 
all of us to ensure that we are there for them, that we have their 
backs, should they be captured or become missing. Because of America's 
commitment to our POW/MIAs, nations around the world are now doing much 
the same, and that leadership is important to our country's core 
values.

                                  <all>

</pre></body></html>
